<html>
<title> - THE STATE OF THE U.S. LIVESTOCK AND POULTRY ECONOMIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         THE STATE OF THE U.S. LIVESTOCK AND POULTRY ECONOMIES

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON LIVESTOCK AND FOREIGN AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________

                           Serial No. 116-16


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-194 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa
                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

           Subcommittee on Livestock and Foreign Agriculture

                    JIM COSTA, California, Chairman

ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina, 
JAHANA HAYES, Connecticut            Ranking Minority Member
TJ COX, California                   GLENN THOMPSON, Pennsylvania
ANGIE CRAIG, Minnesota               SCOTT DesJARLAIS, Tennessee
JOSH HARDER, California              VICKY HARTZLER, Missouri
FILEMON VELA, Texas                  TRENT KELLY, Mississippi
STACEY E. PLASKETT, Virgin Islands   JAMES COMER, Kentucky
SALUD O. CARBAJAL, California        ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
JIMMY PANETTA, California            JIM HAGEDORN, Minnesota

                Katie Zenk, Subcommittee Staff Director

                                  (ii)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     5
Costa, Hon. Jim, a Representative in Congress from California, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Rouzer, Hon. David, a Representative in Congress from North 
  Carolina, opening statement....................................     4

                               Witnesses

Zimmerman, John, turkey farmer; Member, Executive Committee, 
  National Turkey Federation, Northfield, MN.....................     7
    Prepared statement...........................................     9
Porter, Holly, Executive Director, Delmarva Poultry Industry, 
  Inc., Georgetown, DE...........................................    10
    Prepared statement...........................................    12
Will, David, General Manager, Chino Valley Ranchers; Co-Chair, 
  Organic Committee, United Egg Producers, Colton, CA; on behalf 
  of Pacific Egg and Poultry Association.........................    14
    Prepared statement...........................................    15
Georgiades, Kelley Sullivan, Owner and Operator, Santa Rosa 
  Ranch; Member, Board of Directors, Texas and Southwestern 
  Cattle Raisers Association, Crockett, TX.......................    17
    Prepared statement...........................................    18
Salmon, Stephen J., rancher; Member, American Sheep Industry 
  Association; Director, Texas Sheep and Goat Raisers' 
  Association, San Angelo, TX....................................    20
    Prepared statement...........................................    21
Herring, David Dee, Vice President, TDM Farms/Hog Slat Inc.; 
  President, National Pork Producers Council, Lillington, NC.....    24
    Prepared statement...........................................    25

 
         THE STATE OF THE U.S. LIVESTOCK AND POULTRY ECONOMIES

                              ----------                              


                         TUESDAY, JULY 16, 2019

                  House of Representatives,
         Subcommittee on Livestock and Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jim 
Costa [Chairman of the Subcommittee] presiding.
    Members present: Representatives Costa, Brindisi, Hayes, 
Cox, Craig, Harder, Plaskett, Bustos, Panetta, Peterson (ex 
officio), Rouzer, Thompson, Hartzler, Kelly, Marshall, Bacon, 
Hagedorn, and Conaway (ex officio).
    Staff present: Malikha Daniels, Matt MacKenzie, Katie Zenk, 
Callie McAdams, Patricia Straughn, Jeremy Witte, Dana Sandman, 
and Jennifer Yezak.

   OPENING STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. Ladies and gentlemen, the Subcommittee on 
Livestock and Foreign Agriculture will now come to order. As we 
said at the outset, we are attempting to try to hold at least 
two Subcommittee hearings a month, and we are pretty much 
keeping on track. Both the Ranking Member, Mr. Rouzer, and I 
have been working with other Committee Members who are trying 
to make sure that we have a thorough vetting of the issues 
affecting the livestock industry and foreign agriculture around 
the country, and the regional impacts that we see taking place. 
We know that they are not all evenly placed, and of course, 
these trade or tariff wars are having an impact as it relates 
from commodity to commodity group. And therefore, we think it 
is fitting and appropriate that we have the poultry industry 
today give us a state of how they are doing, and not only with 
regards to poultry economics, but also U.S. livestock in 
general.
    The title of this morning's hearing, The State of U.S. 
Livestock and Poultry Economies, will come to order. We are 
pleased to have a good cross representative of industry 
leaders. Our goal today is to hear from on the ground 
stakeholders in various segments of the livestock and poultry 
industry so we know in Congress what is going on for the men 
and women who are involved in this very important part of 
animal agriculture in our country that provides protein for all 
Americans. And enough so that we can export.
    Livestock and poultry producers have big impacts on rural 
economies. In my district alone, sales of livestock, poultry, 
and related products adds up to over $2 billion a year. 
Nationwide, that is nearly in excess of $200 billion annually. 
It has significant broad reaching effects throughout the 
country.
    Today's hearing builds on the previous work of this 
Subcommittee, including a hearing we had 2 months ago with the 
United States Department of Agriculture Under Secretary Greg 
Ibach on our ability to prevent and respond to a new suite of 
animal health programs that was enacted as part of the new 2018 
Farm Bill. Effective administration of animal pest and disease 
prevention programs were dealt with, and how we mitigate and 
eradicate with these new programs is crucial, especially now as 
threats of Virulent Newcastle Disease, Cattle Fever Ticks, 
African Swine Fever that threaten farmers and ranchers across 
the country.
    It is hard to talk about the state of the livestock and 
poultry economies without talking about trade, as I noted in 
the outset. Access to foreign markets and fluctuations in 
foreign demand continue to be a major, major concern as 
livestock and poultry farmers need export markets. The 
Administration's tariff-first attitude hasn't been helping the 
longstanding issues for poultry access into places like China 
needing to be addressed.
    I grew up on our family's farm with the notion that 
farmers, ranchers, and dairymen are price takers, not price 
makers. That means for the first person's who are not familiar 
with life on the farm, they put all the input costs throughout 
the year and at the end of the year, farmers, ranchers, and 
dairymen take what the world market price is. And they may have 
X in that product over a period of months, and need a Y to have 
a profit. But if the market is not Y, they are going to get X, 
and that is the challenge. Farmers, ranchers, and dairymen are 
price takers, not price makers.
    These tariffs are very troubling, and we see that combined 
with climate conditions of floods taking place in parts of the 
country that add further exacerbation of the challenges our 
folks are facing.
    We also know the need for a workable immigration system. 
For all the rhetoric and emotion that surrounds the immigration 
debate, livestock and poultry producers know that they depend 
upon a reliable, year-round labor workforce to keep both the 
farms and the packing sheds running. And what we have seen--and 
I know in California, it is a continuing decline of available 
workforce and reliable workforce in our fields and in our 
packing operations. And it is very troubling, and there is fear 
out in farm country, I can tell you, in the communities that I 
represent. I just saw it last week about potential of raids and 
the impacts of people being deported when some families are 
documented and there legally, and some are not. That fear is 
real.
    Other issues we have, included with Federal meat 
inspection, food safety, meat and poultry labeling across new 
technologies, and Packers and Stockyards Act functions are all 
major issues concerning this Subcommittee, and we will delve 
into that at a later date.
    Today's hearing, though, is just one more step in an 
ongoing conversation on these important issues. The new farm 
bill requires the USDA to complete several studies that will 
provide Congress with the necessary information on important 
issues including an analysis of a possible Livestock Dealer 
Trust and the effectiveness of Food Safety Inspection Service 
outreach to small livestock processors. That information is 
going to help guide our work on these important issues, moving 
forward. We look forward to getting these studies back and 
scheduling a hearing appropriately where we can discuss the 
results with you.
    As Livestock Mandatory Price Reporting expires in 2020, 
this Subcommittee is interested in learning farmer priorities 
in advance so that we can deal with reauthorization.
    I want to thank all of your for being here. I want to thank 
Members of the Subcommittee for your presence and your 
involvement.
    [The prepared statement of Mr. Costa follows:]

Prepared Statement of Hon. Jim Costa, a Representative in Congress from 
                               California
    Good morning, and welcome to today's hearing of the Subcommittee on 
Livestock and Foreign Agriculture on the state of the livestock and 
poultry economy.
    Our goal today is to hear from on-the-ground stakeholders in 
various segments of the livestock and poultry industry so we in 
Congress know what's going on for the men and women involved in animal 
agriculture.
    Livestock and poultry producers have big impacts on rural 
economies. In my district alone, sales of livestock, poultry, and 
related products added up to over $2 billion a year. Nationwide, that 
number is nearly $200 billion annually.
    Today's hearing builds on the previous work of this Subcommittee, 
including a hearing we had 2 months ago with USDA Under Secretary Greg 
Ibach on our ability to prevent and respond to animal pests and 
diseases, including the implementation of a new suite of animal health 
programs that was enacted as part of the 2018 Farm Bill. Effective 
administration of animal pest and disease prevention, mitigation, and 
eradication is crucial, especially now as threats of Virulent Newcastle 
Disease, Cattle Fever Ticks, and African Swine Fever threaten farmers 
and ranchers across the country.
    It's hard to talk about the state of the livestock and poultry 
economies without talking about trade. Access to foreign markets and 
fluctuations in foreign demand continue to be a major concern as 
livestock and poultry farmers need export markets. The Administration's 
tariff-first attitude hasn't been helping and longstanding issues for 
poultry access into places like China need to be addressed.
    We also know you need access to a workable immigration system. For 
all the rhetoric and emotion that surrounds the immigration debate, 
livestock and poultry producers know that they depend on a reliable, 
year-round labor workforce to keep both farms and packing plants 
running smoothly.
    Other issues including Federal meat inspection, food safety, meat 
and poultry labeling, access to new technologies, and Packers and 
Stockyards Act functions are all major issues of concern before this 
Subcommittee.
    Today's hearing is just one more step in an ongoing conversation on 
these important issues. The new farm bill requires USDA to complete 
several studies that will provide Congress with necessary information 
on important issues including an analysis of a possible Livestock 
Dealer Trust and effectiveness of Food Safety Inspection Service 
outreach to small livestock processors. That information is going to 
help guide our work on these important issues, moving forward. We look 
forward to getting these studies back on time and discussing their 
results with you.
    And as Livestock Mandatory Price Reporting expires in 2020, this 
Subcommittee is interested in learning farmer priorities in advance of 
reauthorization.
    Thank you all for being here today and I look forward to your 
testimony.
    With that I recognize the Ranking Member, Mr. Rouzer, for any 
comments he wishes to make.

    The Chairman. I am going to recognize the Ranking Member 
for any comments that he may make, and then we also have our 
Chairman and Ranking Member of the full Committee here to see 
if they have any comments.
    We are going to do something a little different, because 
all of our witnesses represent the breadth and width of this 
great country of ours, and we are going to allow the Members 
who some of these witnesses come from their areas to actually 
introduce their witnesses. We will do that after the opening 
statement by the Ranking Member.

  OPENING STATEMENT OF HON. DAVID ROUZER, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Mr. Rouzer. Well thank you, Mr. Chairman, and I appreciate 
you holding today's hearing to consider the state of the 
livestock and poultry economies.
    We are meeting today against the backdrop of the incredibly 
difficult times in the agriculture industry as a whole. Our 
producers find themselves in a precarious spot after facing 
several years of extreme weather, volatile feed costs, 
uncertain export markets, and constant pressure to protect 
their herds and flocks from disease. Whether it is African 
Swine Fever, labor shortages, as you mentioned, FDA's misguided 
animal biotech strategy, Newcastle Disease, take your pick, the 
animal agriculture sector faces significant threats that are 
capable of devastating not only individual farmers, but the 
broader rural economy as a whole.
    In May, this Subcommittee heard from Under Secretary Greg 
Ibach about USDA's prevention and response capabilities for 
animal pest and disease threats. As we discussed in that 
hearing, thanks to the efforts of the livestock industry and my 
colleagues specifically here in this chamber, the 2018 Farm 
Bill made an historic investment in the tools needed for USDA 
and various partners to identify, diagnose, and respond to 
these threats.
    This Committee continues to engage with the Department, and 
we are pleased to see progress being made on the farm bill 
implementation.
    Perhaps the most important thing that this Congress can do 
to improve not just the livestock and poultry economies, but 
the entire agriculture sector, is ratify the U.S.-Mexico-Canada 
agreement, or USMCA as we know it. According to the U.S. 
International Trade Commission, the increased market access for 
dairy products with U.S.-specific TRQs and the elimination of 
Canada's Class VI and Class VII milk pricing will lead to a net 
increase in U.S. production of almost $227 million. For 
poultry, eggs, and egg products, the U.S. would maintain 
excellent access to Mexico, its top market for those products, 
and would see an increase in Canada's TRQs for turkey, chicken, 
eggs, and egg products with exports of some products expected 
to grow nearly 50 percent.
    Further, there are numerous protections and benefits across 
the livestock and poultry sector in the new agreement on 
sanitary and phytosanitary standards. With all that our farmers 
and ranchers are going through, it is vital that we pass USMCA 
just as soon as practically possible.
    Finally, I would like to acknowledge and thank each of the 
witnesses for providing your testimony today, as well as your 
insight. The time spent away from your families and operations 
is not lost on us, and we greatly appreciate your commitment to 
providing this Committee with timely information that enables 
us to do the very best we possibly can to effectuate good 
public policy.
    I look forward to hearing from you, and Mr. Chairman, I 
will yield back.
    The Chairman. I thank the Ranking Member for his opening 
remarks, and I see that Chairman Peterson is not here, but I 
see the Ranking Member, Mike Conaway from Texas, is here, would 
you like to make an opening statement?

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Only to say that you and the Ranking Member 
both said what needed to be said, and I would rather hear from 
the witnesses. I yield back. Thank you.
    The Chairman. All right. As I noted beforehand, we are 
going to get the formal introduction of the witnesses by 
individual Members out of the way to begin with.
    I believe, Mr. Conaway, you have a witness that comes from 
your area that you would like to introduce?
    Mr. Conaway. I do. Thank you, Mr. Chairman. I would like to 
recognize Steve Salmon from San Angelo, Texas. Steve is a 
third-generation rancher raising sheep, goats, and cattle north 
of San Angelo, Texas. Steve is a member of the Texas Sheep and 
Goat Raisers Association, where he currently serves and the 
Chair of the Natural Resources and Environmental Affairs 
Committee.
    Steve, thank you for coming here today, and we look forward 
to your testimony.
    The Chairman. We thank the Ranking Member for that 
appropriate recognition of that witness. We look forward to 
your testimony.
    Next on my list here is Ms. Craig from Minnesota. I believe 
you have a witness from your district that you would like to 
introduce?
    Ms. Craig. Yes, sir. Thank you, Mr. Chairman.
    I am incredibly proud to welcome John Zimmerman from my 
district to testify before the Committee this morning. John is 
a second-generation Minnesota turkey farmer who also raises 
corn and soybeans. John is past-President of the Minnesota 
Turkey Research and Promotion Council, and on the Executive 
Committee of the National Turkey Federation. He is a graduate 
of Iowa State University with a bachelor's degree in animal 
science. He is also the current Board Chair of River Country 
Cooperative, headquartered in Inver Grove Heights, Minnesota.
    He and his wife, Cara, and son, Grant, live in the great 
City of Northfield in Minnesota's second Congressional 
District. Welcome, John.
    The Chairman. All right. I have two witnesses, I believe 
here, that I would like to introduce. Ms. Porter serves as the 
Executive Director of Delmarva Poultry Industry, Inc., which is 
based in Georgetown, Delaware, represents over 1,700 members of 
the meat chicken industry in Delaware, Maryland, and Virginia. 
And we are very pleased that you are here, and look forward to 
your testimony.
    In addition to Ms. Holly Porter, we have another witness, 
Mr. David Will. He is the General Manager in Chino Valley 
Ranchers in Colton, California, and the ranchers operate five 
farms in southern California, and source eggs from farms in a 
total of eight states, as I understand. Mr. Will is with us 
today on behalf of the Egg Farmers of California, Pacific Egg 
and Poultry Association, and United Egg Producers. Part of that 
group that comes and makes omelets once a year. You make good 
omelets. We are glad that you come here.
    In addition to that, Mr. Vela, who I guess wanted to be 
here--I hope he will be here at some time during the testimony, 
has a witness from his part of Texas, and I will introduce her. 
Ms. Kelley Sullivan Georgiades----
    Mrs. Georgiades. It has only been my name for a month, so I 
am getting used to it myself.
    The Chairman. You are Mrs. Georgiades.
    Mrs. Georgiades. Very good. I am very impressed.
    The Chairman. Well, we will work with that. Mrs. Georgiades 
is the owner and operator of Santa Rosa Ranch, which 
specializes in Brangus cattle near Crockett, Texas, and she is 
here today on behalf of the Texas and Southwest Cattle Raisers, 
and we are glad that you are here to talk about that important 
part of the U.S. beef industry.
    And then, you have a witness as well, Mr. Rouzer, and I 
will let you introduce your witness.
    Mr. Rouzer. Well thank you, Mr. Chairman. It is a great 
pleasure for me to introduce a friend, David Herring, who is 
also a hog farmer from Lillington, North Carolina. David 
currently serves as the President of the National Pork 
Producers Council and works as the Vice President of TDM Farms/
Hogslat, Incorporated, which is a family-owned company. David 
and his brothers, Tommy and Mark, started TDM Farms in 1983, 
growing feeder pigs for market outdoors. Today, TDM Farms is a 
sow, farrow-to-finish operation with farms in North Carolina, 
Indiana, and Illinois, and as a fellow NC State alum, it is a 
great pleasure to have David with us today, who also is an NC 
State graduate, and who is doing a fine job as President of the 
National Pork Producers Council. David, great to have you here.
    I yield back, Mr. Chairman.
    The Chairman. Well, thank the Ranking Member for that good 
introduction, and we look forward to all six witnesses 
testifying.
    Some of you may have more familiarity with this process 
than others, but let me, for all of you, simply say that your 
testimony, as you have been informed, is limited to 5 minutes. 
You have a lighting device in front of you. It is green for 4 
minutes, and then on the fifth minute, it turns yellow, and 
then when you hit the sixth minute, it turns red. And we like 
you to conclude your testimony when it turns red. If you could 
go a little bit before and end while it is still yellow, that 
is fine, because that gives us a little more time.
    The chair will be tolerant to a point, but obviously if you 
continue to go on, that doesn't work so well for the Committee. 
You do have the ability to provide extended testimony for the 
record that is written that we can then look at, but it is 5 
minutes. That is the way we do it. We will get through all of 
your six statements, and then following, questions by Members 
of the Subcommittee here. And we are limited to 5 minutes, and 
we already have a list of Members on both sides who are looking 
to ask questions.
    Let us begin with Mr. John Zimmerman, turkey farmer, 
Northfield, Minnesota, on behalf the Minnesota Turkey Growers 
Association and the National Turkey Federation. You have 5 
minutes. Please open up.

          STATEMENT OF JOHN ZIMMERMAN, TURKEY FARMER; 
         MEMBER, EXECUTIVE COMMITTEE, NATIONAL TURKEY 
                   FEDERATION, NORTHFIELD, MN

    Mr. Zimmerman. Good morning, Chairman Costa, Ranking Member 
Rouzer, Congresswoman Craig, and Members of the Committee. 
Thank you for the opportunity to share the turkey industry's 
perspective today.
    My name is John Zimmerman, and I am a turkey grower from 
Northfield, Minnesota. On our farm, we raise about 4 million 
pounds of turkey per year, and grow corn and soybeans as well. 
For me, raising turkeys has been a family business. I have been 
around the industry my entire life. My father raised turkeys 
before me, and I have taken over the family business. I won't 
say that it is easy work, but we love what we do.
    I also serve on the Executive Committee of the National 
Turkey Federation, which represents the entire U.S. turkey 
industry, from growers like myself, to processing companies, 
and also our industry partners. Last year, more than 244 
million turkeys were raised in the United States, and USDA 
estimates that turkey meat production will reach 5.8 billion 
pounds this year, right in line with what it was in 2018. In 
total, the turkey industry generates nearly 441,000 jobs, and 
in order to support these jobs, we need to make sure policies 
coming out of Washington that affect us are common sense and 
preserve rural America's ability to thrive.
    That is where we need your help, and we look forward to 
working with Congress and this Committee to address these 
issues.
    The turkey industry currently exports more than ten percent 
of its products, and trade continues to play a more critical 
role in our industry's ability to profitably grow. Now, more 
than ever, the turkey industry needs government's assistance 
opening closed markets and those markets that are open, but 
prohibit U.S. turkey imports for other reasons. We are pleased 
to report that almost all markets that were closed due to the 
2015 outbreak of Highly-Pathogenic Avian Influenza have 
reopened, but we still lack access to some very critical 
markets, such as China. We are hopeful the ongoing trade 
discussions yield a successful return, as this will greatly 
improve the current stagnant turkey market conditions.
    In 2018, NTF members exported more than 610 million pounds 
of turkey valued at $623 million, and we will continue working 
with government to build trade relationships.
    The Chairman. What percentage of that total production is 
that you are exporting?
    Mr. Zimmerman. Is exported?
    The Chairman. Yes.
    Mr. Zimmerman. Ten percent.
    To that end, the turkey industry is here for our annual 
fly-in, and our number one priority is encouraging passage of 
USMCA. Our industry has always had a fantastic relationship 
with Mexico, and ratifying this agreement will only improve 
that bond. The deal also lays the groundwork to see greater 
quantity of U.S. turkey sent to Canada. This agreement did not 
go as far as we were hoping, given their supply management 
system for poultry; however, it is a modest improvement. And we 
strongly encourage Congress to vote ``yes'' on USMCA as soon as 
possible.
    In 2015, the poultry industry was devastated by HPAI, which 
exponentially reduced our export markets and forced the 
destruction of flocks throughout my home State of Minnesota. 
The global spread of HPAI and now African Swine Fever shows 
that no country is immune, and we need to be prepared with an 
adequate number of well-qualified response teams who have the 
resources to work directly with animal agriculture to avoid 
these diseases through prevention, first and foremost.
    The farm bill process created the National Animal Disease 
Preparedness and Response Program, designed to limit the impact 
of foreign zoonotic diseases on U.S. livestock and poultry 
producers, and we applaud the Committee for holding hearings 
earlier this year on the status of the program. We anxiously 
await its implementation.
    As the saying goes, an ounce of prevention is worth a pound 
of cure, and we need to stay focused on targeted efforts in 
both monitoring and rapid response that reduce the ability of 
foreign diseases to gain a foothold in this country, which 
devastate our industries and wreck our trade markets.
    As I mentioned 3 years ago during my testimony before this 
Committee, our industry continues to suffer from a lack of 
access to workers. We support immigration reform that includes 
policies and provisions that meet the needs of the U.S. 
economy, but most importantly, a visa program for meat and 
poultry processors. Most turkey plants are located in rural, 
low-unemployment areas, and to fully staff these plants, 
producers must recruit from outside their local areas, and in 
many instances, rely on immigrant labor. Existing guestworker 
programs target only seasonal, on farm labor, and non-
agricultural manufacturing, and we need workers in our plants 
year-round. We stand ready to work with any and all parties to 
achieve a workable system. There is currently no single bill 
that provides a silver bullet, but it is time to resolve the 
immigration debate for the good of rural America's economy.
    Finally, the meat and poultry industries have been working 
with USDA, FDA, and academia to find better ways to combat 
diseases and conditions that impact food safety and overall 
animal health. Food safety and animal welfare are our top 
priorities, and we have committed hundreds of millions of 
dollars to these tasks. But the partnership with the Federal 
Government is important to us, and there is considerable 
expertise at the Agricultural Research Service, and we simply 
encourage the Federal Government to continue committing, and if 
possible, enhance resources to improving food safety and animal 
welfare. Research, modernizing inspections, and streamlined 
processes for new technology approval are critical to 
maintaining the status of having the safest food in the world.
    Once again, thank you for the opportunity to testify today 
on the state of the U.S. turkey industry and the issues 
impacting our businesses, and I would be happy to answer any 
questions.
    [The prepared statement of Mr. Zimmerman follows:]

Prepared Statement of John Zimmerman, Turkey Farmer; Member, Executive 
         Committee, National Turkey Federation, Northfield, MN
    Good morning, Chairman Costa, Ranking Member Rouzer, Congresswoman 
Craig, and Members of the Committee. Thank you for the opportunity to 
share the turkey industry's perspective today.
    My name is John Zimmerman, and I'm a turkey grower from Northfield, 
Minnesota. On my farm, we raise about four million pounds of turkey 
each year and grow corn and soybeans as well. For me, raising turkeys 
is a family business. I've been around the turkey industry my entire 
life. My father raised turkeys before me, and I took over the family 
business. I won't say that it's easy work. But I do what I love.
    I also serve on the Executive Committee of the National Turkey 
Federation, which represents the entire U.S. turkey industry from 
growers like me to processor companies and our industry partners as 
well. Last year, more than 244 million turkeys were raised in the 
United States, and USDA's latest data projects that turkey meat 
production will reach 5.8 billion pounds this year, right in line with 
what we saw in 2018. In total, the turkey industry generates nearly 
441,000 jobs. As the industry continues to recover from the avian 
influenza outbreak in 2015 and gain access to new markets for turkey, 
we are also working to find more ways to remain competitive and meet 
consumer demands in a crowded protein field. After all, while turkey 
may have its big day on Thanksgiving, it's a great protein source year-
round. I see significant potential for the turkey industry's growth in 
the near future, but we need to make sure policies coming out of 
Washington that affect agriculture and food manufacturing are common 
sense and preserve rural America's ability to thrive. That's where we 
need your help, and we look forward to working with Congress, and this 
Committee, to address these issues.
Exports
    The turkey industry currently exports more than ten percent of its 
products, and trade continues to play a more critical role in our 
industry's ability to profitably grow. Now more than ever, the turkey 
industry needs our government's assistance opening closed markets or 
those markets that are open and prohibit U.S. turkey imports in other 
ways. We are pleased to report that almost all markets that were closed 
due to the 2015 outbreak of Highly-Pathogenic Avian Influenza (HPAI) 
have reopened, but we still lack access to some very critical markets, 
such as China as they continue to block U.S. poultry into the market. 
We are encouraged and hopeful that the trade discussions that are 
ongoing will yield a successful return--having this market available 
again will greatly improve current stagnate market conditions.
    In 2018, NTF members exported more than 610 million pounds of 
turkey valued at $623 million. We will continue working with our 
government to build relationships that benefit not only us but assist 
those importing countries in growing jobs through further processing 
and distribution of delicious turkey products.
    To that end, the turkey industry's number one priority is 
encouraging the passage of the U.S.-Mexico-Canada Agreement (USMCA). 
The turkey industry has a fantastic relationship with those we do 
business with in Mexico and ratifying this agreement will only improve 
that bond. The deal also lays the groundwork to see a greater quantity 
of U.S. turkey products going north to Canada. The agreement did not go 
as far as we were hoping given their supply management system for 
poultry; however, it is a modest improvement. It also achieves valuable 
concessions on sanitary/phytosanitary standards. We strongly encourage 
Congress to vote ``yes'' on USMCA as soon as possible.
    Additional markets that we are hopeful to improve access to are 
China as previously mentioned and India, which is still only nominally 
open even though we have been granted access.
Disease Prevention Through Monitoring and Rapid Response
    In 2015, the poultry industry was devastated by HPAI, which 
exponentially reduced our export markets and forced the destruction of 
flocks throughout my home State of Minnesota. Today, with the dangerous 
spread of African Swine Fever (ASP) throughout the world, we are 
reminded once again that we must be proactive in limiting our exposure 
to emerging diseases that are a constant threat. The global spread of 
HPAI and now ASP shows that no country is immune, and we need to be 
prepared with an adequate number of well-qualified response teams who 
have the resources to work directly with animal agriculture to avoid 
these diseases through prevention first and foremost. The farm bill 
process created the forward-looking, mandatory National Animal Disease 
Preparedness and Response Program designed to limit the impacts of 
foreign zoonotic diseases on U.S. livestock and poultry producers. We 
applauded this Committee for holding a hearing earlier this year in 
order to get a report on the progress of rolling out the plan. We are 
anxiously awaiting implementation of this program as we truly do 
believe that ``an ounce of prevention is worth a pound of cure.'' We 
need to stay focused on targeted efforts, in both monitoring and rapid 
response, that reduce the ability of foreign diseases to gain a 
foothold in this country, devastate our industries and wreck trade 
markets. We appreciate the progress made by APHIS on this front and 
look forward to creating stronger, coordinated disease prevention 
measures.
Immigration
    As I mentioned 3 years ago during my testimony before this 
Committee, our industry continues to suffer from a lack of access to 
workers. The turkey industry supports immigration reform that includes 
policies and provisions that will maximize benefits to the industry and 
ensure a strong and durable immigration system that meets the needs of 
the U.S. economy.
    Most turkey plants are located in rural, low-unemployment areas. To 
fully staff these plants, producers must recruit from outside of their 
local areas and in many instances must rely on immigrant labor. 
Existing guestworker programs target only seasonal, on-farm labor and 
non-agricultural manufacturing. We need workers in our plants year-
round, and we stand ready to work with any and all parties to achieve a 
workable system. The turkey industry hopes that Washington can put the 
rhetoric aside and find a solution.
    As mentioned earlier, the meat and poultry industry has the 
opportunity to grow and provide additional quality jobs, particularly 
if export markets can be improved, but we must have workers available 
to help meet new demands. Otherwise, it will be virtually impossible to 
capitalize when the doors of new export markets are pushed further 
open. NTF members need better access to a pool of legal, general labor 
immigrant workers, and we support a visa program that addresses the 
needs of the meat and poultry processing industries. There is currently 
no single bill that provides a ``silver bullet,'' but it is time to 
resolve the immigration debate for the good of rural America's economy.
Food Safety
    Finally, the meat and poultry industries have been working with 
USDA, FDA and academia to find better ways to combat diseases and 
conditions that impact food safety and overall animal health. Food 
safety and animal welfare are our top priorities, and we have committed 
hundreds of millions of dollars to these tasks. But, the partnership of 
the Federal Government is important to us. There is considerable 
expertise at the Agricultural Research Service, and we simply encourage 
the Federal Government to continue committing--and if possible 
enhance--resources to improving food safety and animal welfare. 
Research, modernizing inspections and a streamlined process for new 
technology approval is critical to maintaining the status of having the 
safest food in the world.
    Once again, thank you for the opportunity to testify today on the 
state of the U.S. turkey industry and the issues impacting our 
businesses. I will be happy to answer any questions.

    The Chairman. All right, a little over your time, but 
within reason.
    Our next witness is Ms. Holly Porter, the Executive 
Director of the Delmarva Poultry Industry, Inc., in Georgetown, 
Delaware. Ms. Porter, would you please begin your testimony?

STATEMENT OF HOLLY PORTER, EXECUTIVE DIRECTOR, DELMARVA POULTRY 
                 INDUSTRY, INC., GEORGETOWN, DE

    Ms. Porter. Good morning, and thank you, Chairman Costa, 
Ranking Member Rouzer, and Members of the Subcommittee. As 
mentioned, I am the Executive Director of the Delmarva Poultry 
Industry, Incorporated, which is the trade association that 
represents the family farmers, the processors, and the allied 
businesses within Delaware, the Eastern Shore of Maryland, and 
the Eastern Shore of Virginia, also known as the Delmarva 
Peninsula.
    It is a pleasure to be here today representing the meat 
industry, which actually got its start on the Delmarva nearly 
100 years ago. Today, our ag economy in Delmarva is built on 
what we refer to as a three-legged stool. The family farmers 
raising the birds, the farmers raising the grain, and the 
processors who both partner with these folks. If any one of 
those legs were to come off the stool, the economy would 
collapse.
    As of 2018, we have more than 1,300 family farmers that 
contract with five processing companies: Allen Harim, Amick 
Farms, Mountaire Farms, Perdue Farms, and Tyson. This may be 
unique to other areas of the country that produce chicken--our 
growers have various growers or processors, and they also have 
various production types. In 2018, these family farmers earned 
$268 million in contract income. The five processors in 
Delmarva purchase more than 136 million bushels of corn, 
soybeans, and wheat to feed the chickens, which was mainly 
grown on the peninsula. As a matter of fact, our grain farmers 
receive a premium due to the proximity to the chicken industry, 
and it is the reason why my father, a small grain farmer, 
tilling only 325 acres, is able to be profitable.
    And we needed all of that feed for our Delmarva farmers, 
because we raised over 605 million chickens in 2018, which 
equated to about 4.3 billion pounds of chicken, or $3.4 billion 
wholesale value. While the number of chickens raised on the 
Delmarva is about the same as it was 20 years ago, the weights 
have increased by almost 36 percent due to different 
efficiencies, genetics, and increased technology within the 
chicken houses.
    Most importantly, this industry brings jobs to the 
Delmarva. The five companies alone employ more than 20,000 
people and paid $784 million in wages. In an area with limited 
industries, this is very, very important. As a matter of fact, 
in an economic study, it was estimated that the meat chicken 
industry generated $2.98 billion, $1.75 billion, and $1.33 
billion in total economic activity in Delaware, the Eastern 
Shore of Maryland, and the Eastern Shore of Virginia 
respectively. That also generated millions in state and local 
tax revenues.
    Turning to national numbers, according to that same study, 
the chicken industry added economic value of $347 billion, 
created millions of jobs nationwide, and generated nearly $27 
billion in state and Federal taxes. This was accomplished by 
about 30 processors that contract with 25,000 family farmers 
and raised over nine billion chickens, weighing in at 56.8 
billion pounds of meat. The U.S. has the largest meat chicken 
industry in the world.
    I am not an economist, so I won't try to forecast, but 
there are some basic factors that play into the growth or 
decline of any business, namely supply and demand. 
Domestically, demand continues to increase with Americans 
consuming more than 98.3 pounds of chicken per capita in 2018. 
However, in the past year, there has also been an increase of 
animal protein supply on the domestic market. While that market 
pressure has occurred, the chicken industry was also in the 
middle of nationwide expansion, with six new poultry processing 
plants expected to be operational by 2020. This has also 
spurred an increase in the demand for additional houses, which 
we have had as well on the Delmarva Peninsula. In the past 
year, between the increase of new housing and some market 
pressures, we have had a tightening of profit margins for both 
our processors and our family farmers.
    Due to our proximity to the Mid-Atlantic region, a lot of 
our chicken industry is fresh market. However, the U.S. 
exported about 17 percent of its chicken production in 2017, or 
7 billion pounds of chicken meat. Mexico and Canada are our top 
two export markets, with a combined value over $850 million. 
The passage of USMCA is absolutely critical to the chicken 
industry, and we call on Congress to vote on this agreement as 
soon as possible.
    Just like any business, increased market opportunities 
through free trade agreements will only help the economy of the 
chicken industry.
    I appreciate the opportunity to provide this testimony, and 
I am happy to answer any questions.
    [The prepared statement of Ms. Porter follows:]

   Prepared Statement of Holly Porter, Executive Director, Delmarva 
                 Poultry Industry, Inc., Georgetown, DE
    Good morning, and thank you Chairman Costa, Ranking Member Rouzer, 
and Members of the Subcommittee. I am Holly Porter, the Executive 
Director of the Delmarva Poultry Industry, Inc, also known as DPI, the 
1,700-member trade association that represents the family farmers, 
processors and allied businesses within Delaware, the Eastern Shore of 
Maryland and the Eastern Shore of Virginia, otherwise known as the 
Delmarva Peninsula.
    It is a pleasure to be here today representing the meat chicken 
industry, an industry that started on the Delmarva nearly 100 years ago 
when Cecil Steele a farmer in Ocean View, Delaware received 500 chicks 
instead of the 50 that she ordered for eggs. She decided to raise the 
birds and sell them to a northern market--she made 62 a pound--which 
would be $5-$6 today, ordered 1,000 chicks for the next flock and the 
rest is history.
    Today on Delmarva our agricultural economy is built on what we 
refer to as the three-legged stool--the family farmers raising the 
birds and the grain for feed, and the processors who they both partner 
with. If any one of those legs were to come off the stool, the economy 
would collapse. As of 2018, we have more than 1,300 individual family 
farmers that contract with five companies to handle the poultry health, 
processing and marketing, also known as the vertically integrated 
system. Those five companies are Allen Harim, Amick Farms, Mountaire 
Farms, Perdue Farms and Tyson. This may be unique to other areas of the 
country that produce chicken--our growers have various options of not 
only processors but also production type--from raising Cornish hens 
(really small birds), broilers, roasters or even organic, depending on 
the company's market and niche. In 2018, these family farmers earned 
$268 million in contract income, an increase of 5% from the previous 
year.
    The five processors on Delmarva purchased more than 136 million 
bushels of corn, soybeans and wheat for feed for chickens in 2018--most 
of which was grown on the peninsula. As a matter of fact, our grain 
farmers enjoy a premium for their commodity due to the proximity to the 
chicken industry. It's one of the reasons why my father, a small grain 
farmer tilling only 325 acres and others like him can still be 
profitable.
    And we needed all that feed as our Delmarva farmers raised 605 
million chickens in 2018, that equated to 4.3 billion pounds of chicken 
processed by the companies, generating $3.4 billion in wholesale value. 
While the number of chickens raised on Delmarva is approximately the 
same as 20 years ago, the pounds have increased by more than 36%, due 
to efficiencies in feed, better genetics and increased technology 
within the chicken houses allowing for a better environment to raise 
healthy birds.
    Another crucial aspect of the broiler industry on Delmarva is the 
amount of job opportunities it generates. The five companies alone 
employed more than 20,000 people across the Delmarva and paid $784 
million in wages. In an area with limited industries, these jobs are 
important for fueling the local economy. In the 2018 Economic Impact 
Study of the Poultry Industry, conducted by John Dunham and Associates, 
it was estimated that the meat chicken industry generated $2.98 
billion, $1.75 billion and $1.33 billion in total economic activity in 
Delaware, the Eastern Shore of Maryland and the Eastern Shore of 
Virginia, respectively. This also generated tax revenues of $74.87 
million, $112.8 million and $294.17 million in state and local taxes, 
respectively.
    I've focused on the economics within the Delmarva peninsula, but 
let me talk a minute about some nationwide statistics. According to the 
same 2018 Economic Impact Study of the Poultry Industry, there was a 
nationwide economic value of $347 billion, creating nearly 1.4 million 
indirect jobs and generating nearly $27 billion in state and Federal 
taxes.
    According to the National Chicken Council, this was accomplished 
through 30 chicken companies that are processing and marketing chickens 
and 25,000 family farmers who partner with those processors. They 
raised more than nine billion chickens, weighing in at 56.8 billion 
pounds of meat. With those numbers it is no surprise that the United 
States has the largest broiler chicken industry in the world. And while 
I'm proud to say that Sussex County, Delaware leads the United States 
in the number of chickens produced in one county, the top five broiler 
chicken states are actually Georgia, Alabama, Arkansas, North Carolina 
and Mississippi.
    I am not an economist, so I won't try to forecast the chicken 
industry. But there are many basic factors that play into the growth or 
decline of any business--namely supply and demand.
    Domestically, demand continues to increase, with Americans 
consuming more than 93.8 pounds of chicken per capita in 2018--an 
increase of 11% over the past 10 years. However, in the past year there 
has also been an increase of animal protein supply on the domestic 
market, encouraging consumers to choose other meats--such as steak, 
pork or seafood.
    While that market pressure has occurred, the chicken industry was 
in the middle of nationwide expansion, with six new poultry processing 
plants expected to be operational by 2020. This has also increased the 
demand for additional square footage of poultry houses.
    The same expansion of new chicken houses has occurred on the 
Delmarva peninsula. If you recall, I mentioned that the industry has 
been in place for almost 100 years in our area. In 2018, DPI gathered a 
sample of \2/3\ of the operating chicken houses on the peninsula and 
26% were 31 years or older. Like any building, there is only so many 
upgrades that can be made before the houses are not efficient. In the 
past year, the increase of new housing along with market pressures has 
caused some tightening of profit margins for both our companies and our 
growers.
    Due to the proximity of the Delmarva region to millions of people 
in the Mid-Atlantic and Northeast, our production is mainly for fresh 
market or tray packed. However, several of the companies processing on 
Delmarva export dark meat and chicken paws and overall the United 
States exported about 17% of its production in 2018 or 7 billion pounds 
of chicken meat. This makes us second in broiler exports worldwide 
behind Brazil. Mexico and Canada are our top two export markets, with a 
combined value of over $850 million in 2018. The passage of U.S.-
Mexico-Canada Agreement (USMCA) is absolutely critical to the chicken 
industry not only in protecting the current market place but growing 
it. We call on Congress to vote on USMCA as soon as possible.
    Just like any business, increased market opportunities through free 
trade agreements, will only help the economy of the chicken industry.
    I appreciate the opportunity to provide this testimony and I am 
happy to answer any questions you may have.

    The Chairman. Well, thank you very much, Ms. Porter, and I 
believe that there will be a number of questions directed 
toward you as it relates to the impacts on the trade and 
sourcing.
    Our next witness is Mr. David Will, General Manager, Chino 
Valley Ranchers, Colton, California, on behalf of egg farmers 
in California, and Pacific Egg and Poultry Association, that 
are joined with the United Egg Producers.
    Mr. Will, we look forward to hearing your testimony.

    STATEMENT OF DAVID WILL, GENERAL MANAGER, CHINO VALLEY 
 RANCHERS; CO-CHAIR, ORGANIC COMMITTEE, UNITED EGG PRODUCERS, 
                   COLTON, CA; ON BEHALF OF 
              PACIFIC EGG AND POULTRY ASSOCIATION

    Mr. Will. Thank you, and good morning Chairman Costa, 
Ranking Member Rouzer, and the distinguished Members of this 
Subcommittee. My name is David Will, and since 2001, I have 
been the General Manager of Chino Valley Ranchers, a second and 
third generation family owned and operated business with five 
farms in southern California, one in Texas. Chino Valley 
Ranchers employs 330 people company-wide, and also sources eggs 
from about 150 family-owned and operated farms in seven 
additional states. In addition to representing farms in 
California, I am honored here today to speak on behalf of the 
Pacific Egg and Poultry Association, as well as the United Egg 
Producers, whose members account for about 90 percent of all 
eggs produced in the United States.
    This Subcommittee will recall the devastation that egg 
farmers and other poultry producers endured in the Highly-
Pathogenic Avian Influenza outbreaks of 2014 and 2015. This 
catastrophe cost taxpayers around $1 billion, but the economic 
impact to the affected producers, their workers, and local 
communities was substantially more than that.
    More recently, my State of California has suffered the 
effects of Virulent Newcastle Disease. We hope that we are at 
the end of this outbreak, which has an impact to more than 1.2 
million head of poultry in three states.
    There are several lessons that we have learned from these 
and other disease outbreaks. Biosecurity is all important. Our 
industry has already had extreme biosecurity, but we have had 
to double down since the high-path AI outbreaks. Unfortunately, 
as California experienced with vND has shown, biosecurity can 
be undermined by backyard poultry flocks located near 
commercial operations. During the outbreak, it has not been 
uncommon to find 20 or more positive backyard flocks within a 
kilometer of a commercial producer. In addition, our ability to 
combat vND was compromised by social media networks that warned 
of the approach of enforcement officials, and encouraged people 
to move or hide potentially infected birds. More broadly, we 
have a continuing problem with trespassers, often animal 
activists, who break into our operations and sometimes remove 
birds, compromising the biosecurity of the remaining flock, and 
possibly forcing euthanasia to decrease the spread.
    Fortunately, Congress has recognized the need for joint 
efforts. We commend Congress, and in particular, this 
Subcommittee, for the mandatory funding provided to animal 
health in the 2018 Farm Bill. We, along with our colleagues in 
animal agriculture, strongly support the new Animal Disease 
Prevention and Management Program. We support all three of its 
components. We do want to emphasize that the Pest and Disease 
Prevention Program included in the cooperative agreement with 
states should not be shortchanged. The vaccine bank is 
important, but not the only part of the new program. The 
prevention program, as well as animal health laboratories, are 
critical components as well. Actually, in our own vND 
experience is this great illustration. What we needed was not 
vaccines, but boots-on-the-ground. A fast response team that 
included both USDA and California Department of Food and 
Agriculture.
    In the area of avian health, everyone agrees that Highly-
Pathogenic AI should be prevented, but if an outbreak occurs 
despite our best efforts, emergency funds under the Commodity 
Credit Corporation are an appropriate response. We also believe 
that USDA should use CCC funds for indemnity, virus 
elimination, and other costs of Low-Pathogenic AI outbreaks.
    History shows us that low-path can and does mutate into 
high-path. For that reason, stamping out the disease when it 
occurs is extremely important and justifies the use of CCC 
funds. And similarly, USDA has used CCC funds to respond to vND 
in California and other states. We commend the Department for 
tapping those funds, and encourage the aggressive response.
    Early detection is key. Finally, we support the 
establishment of objective and equitable payment rates of the 
costs involved in animal disease outbreaks. In particular, we 
have serious concerns about USDA's proposal for payment rates 
for virus elimination; that is, the cost of ensuring that avian 
influenza virus is completely eliminated from an affected egg 
farm. We have shown in detailed comments that USDA has 
unrealistic and outdated numbers in these calculations. 
Similarly, we have encouraged USDA to review how it calculates 
indemnities are paid to affected producers for the value of 
their lost production. We believe that costs in leaving 
facilities idle for an extended period of time after an 
outbreak, which is often required by USDA, should be taken into 
account, in addition to the region where the eggs are produced.
    Finally, I would like to say that this Subcommittee is 
focusing on animal health, but the Subcommittee is well aware 
that producers face numerous other challenges. I was 
particularly happy to hear you, Representative Costa, say that 
we do need year-round labor. We are not a seasonal group or 
commodity, and we appreciate the comments.
    Again, I am available for any questions, and thank the 
Committee and my other ag members here for being available for 
this. Thank you.
    [The prepared statement of Mr. Will follows:]

    Prepared Statement of David Will, General Manager, Chino Valley 
 Ranchers; Co-Chair, Organic Committee, United Egg Producers, Colton, 
          CA; on Behalf of Pacific Egg and Poultry Association
    Chairman Costa, Ranking Member Rouzer, and distinguished Members of 
the Subcommittee: My name is David Will and since 2001 I have been the 
general manager of Chino Valley Ranchers, a third-generation family 
owned and operated business with five farms in southern California. 
Chino Valley Ranchers employs 330 people and also sources eggs from 
over 150 family farms in seven other states. In addition to 
representing egg farms in California, I'm honored today to speak on 
behalf of the Pacific Egg and Poultry Association as well as United Egg 
Producers, whose members account for about 90 percent of all eggs 
produced in the United States.
    The egg industry appreciates the Subcommittee's invitation to 
testify. We are honored to be here with other commodity groups 
representing animal agriculture. All of us face multiple challenges, 
but the biggest challenges come from sources we can't see: animal 
health threats such as avian influenza and virulent Newcastle Disease.
    This Subcommittee will recall the devastation that egg farmers and 
other poultry producers endured in the highly pathogenic avian 
influenza outbreaks of 2014 and 2015. This catastrophe cost taxpayers 
around $1 billion, but the economic impact on affected producers, their 
workers and local communities was substantially more than that, 
according to independent estimates. More recently, my State of 
California has suffered the effects of virulent Newcastle disease. We 
hope we are at the end of that outbreak, which had an impact on more 
than 1.2 million head of poultry in three states. There are several 
lessons to be learned from these and other disease outbreaks.
    First, biosecurity is all-important. Our industry already had 
extremely tight biosecurity, but we have doubled down since the HPAI 
outbreaks. Unfortunately, as California's experience with vND has 
shown, biosecurity can be undermined by backyard poultry flocks located 
near commercial operations. During the outbreak, it has not been 
uncommon to find 20 or more positive backyard flocks within a kilometer 
of commercial producers. In addition, our ability to combat vND was 
compromised by social media networks that warned of the approach of 
enforcement officials and encouraged people to move or hide potentially 
affected birds. More broadly, we have continuing problems with 
trespassers, often animal activists, who break into our operations and 
sometimes remove birds, compromising the biosecurity of the remaining 
flock and sometimes requiring euthanasia to prevent disease spread.
    Second, the impact of disease outbreaks is not only the losses to 
affected producers, but the trade impacts that are often felt by entire 
industries. USDA has done a great job of encouraging our trading 
partners to regionalize their response to outbreaks, meaning they 
restrict only imports from regions directly affected by the disease. 
But not all trading partners respect these science-based practices, and 
trade suffers as a result.
    Third, both response and--most important--prevention require a 
joint effort by the private- and public-sectors. Our industry learned 
many lessons from the HPAI outbreak, but so did our Federal and state 
partners. I think they would acknowledge they are better prepared now 
than they were then.
    Fortunately, Congress has recognized the need for joint efforts. We 
commend Congress, and in particular this Subcommittee, for the 
mandatory funding provided to animal health in the 2018 Farm Bill. We 
along with our colleagues in animal agriculture strongly supported the 
new Animal Disease Prevention and Management Program. We support all 
three of its components. We do want to emphasize that the pest and 
disease prevention program, including its cooperative agreements with 
states, should not be short-changed. The vaccine bank is important, but 
it is not the only part of the new program. The prevention program as 
well as animal health laboratories are critical components as well. 
Actually, our vND experience is a good illustration. What was needed 
there was not vaccine but boots-on-the-ground--a fast response team 
that included both USDA and the California Department of Food and 
Agriculture.
    In the area of avian health, everyone agrees that Highly-Pathogenic 
AI should be prevented, but if outbreaks occur despite our best 
efforts, emergency funds under the Commodity Credit Corporation are an 
appropriate response. We also believe that USDA should use CCC funds 
for indemnities, virus elimination and other costs of Low-Pathogenic AI 
outbreaks. History shows us that LPAI can and does mutate into HPAI. 
For that reason, stamping out the disease when it occurs is extremely 
important, and justifies the use of CCC funds.
    In a similar way, USDA has used CCC funds to respond to vND in 
California and other states. We commend the department for tapping 
those funds, and encourage USDA to continue its aggressive response to 
this disease in partnership with industry and state officials. Early 
detection is key. We need to keep the dialogue open between the show 
bird community and commercial producers.
    Finally, we support the establishment of objective and equitable 
payment rates for the costs involved in animal disease outbreaks. In 
particular, we have had serious concerns about USDA's proposals for 
payment rates for virus elimination, that is, the costs of ensuring 
that an avian influenza virus is completely eliminated from an affected 
egg farm. We've shown in detailed comments that USDA has used 
unrealistic and outdated numbers in these calculations. Similarly, we 
have also encouraged USDA to review how it calculates indemnities that 
are paid to affected producers for the value of their lost production. 
We believe the cost of leaving facilities idle for an extended period 
of time after an outbreak, which is often required by USDA, should be 
taken into account in calculating indemnities. The type of eggs and the 
regions where they are produced should also be taken into account where 
they have different market values.
    None of this takes away from the high regard in which we hold 
USDA's animal health efforts. We work in partnership with APHIS as well 
as state agencies, and we find them highly professional and genuinely 
concerned about farm families, their employees, animal welfare and the 
impact on local communities.
    Although today's hearing has a focus on animal health, the 
Subcommittee is well aware that producers face numerous other 
challenges. While I realize that immigration is not generally within 
your jurisdiction, I could not appear before you without stressing the 
need for an immigration policy that allows us to have a stable, 
reliable and legal labor force. Current guestworker laws focus on 
seasonal employment, whereas we need to care for our birds 365 days of 
the year. We appreciate the efforts of many Members to address the 
labor needs of animal agriculture.
    Thank you again for the opportunity to appear before you today.

    The Chairman. Thank you for your testimony, and staying 
within the time limit.
    We have been joined by the Chairman of the House 
Agriculture Committee, and always pleased to have him 
participate. And we will now go on to our fourth witness, Mrs. 
Kelley Sullivan Georgiades, Owner and Operator of Santa Rosa 
Ranch in Crockett, Texas, on behalf of the Texas and 
Southwestern Cattle Raisers Association.
    Mrs. Georgiades. Thank you, Mr. Chairman.
    The Chairman. The floor is yours.

 STATEMENT OF KELLEY SULLIVAN GEORGIADES, OWNER AND OPERATOR, 
              SANTA ROSA RANCH; MEMBER, BOARD OF 
 DIRECTORS, TEXAS AND SOUTHWESTERN CATTLE RAISERS ASSOCIATION, 
                          CROCKETT, TX

    Mrs. Georgiades. Thank you. Good morning, Mr. Chairman, and 
distinguished Members of the Committee. My name is Kelley 
Sullivan Georgiades, and I am a fourth-generation cattle 
producer from Crockett and Navasota, Texas, where I own and 
operate Santa Rosa Ranch, the largest registered breeder of 
Brangus and ultra-black cattle in the United States.
    I am here today on behalf of the 142 year old Texas and 
Southwestern Cattle Raisers Association to share our opinion on 
the current state of the cattle industry, and our most pressing 
challenges for the future.
    Our nation is home to 94.8 million head of cattle. My home 
State of Texas has 13 million, more than any other state, and 
almost double the number of the next closest state.
    The beef we produce not only provides Americans with a high 
quality, safe, and nutrient dense form of protein, but the 
Texas cattle industry is also the leading contributor to the 
states' agricultural economy, with annual sales in excess of 
$12 billion, nearly \1/2\ of the total for all commodities in 
the state.
    Though the cattle industry is robust and resilient, it is 
certainly not without its challenges. I would encourage the 
Members of this Committee to pursue policies that help address 
these challenges, and secure a strong future for our nation's 
cattle producers.
    Chief among these issues is trade. For cattle producers, 
maintaining and building demand for the U.S. beef products is 
essential. The simple fact is that 96 percent of the world's 
consumers live outside of the United States. These customers 
have become a necessary part of our industry, and in 2018, we 
sold more than $8.3 billion worth of U.S. beef products abroad.
    Foreign consumers often demand cuts that are not highly 
sought after in the domestic market. If you go to a steakhouse 
in the United States, it is doubtful that you find beef tongue 
listed among the ribeyes and other top beef cuts. Yet, in those 
countries who are our largest export markets, such as Japan, 
South Korea, Mexico, Canada, and Hong Kong, beef tongue and 
other varietal cuts are a delicacy and fetch a premium price. 
That premium and the additional demand from foreign consumers 
increases the value of each animal sold in the United States by 
almost $300 per animal. We would like to see that value 
increase, because for many cattle producers, that $300 per 
animal may already be the difference between being a successful 
business and bankruptcy. It cannot shrink. We are a low-margin 
industry.
    The most important thing this Congress can do for American 
ranchers is to approve the U.S.-Mexico-Canada trade agreement, 
USMCA. Mexico and Canada combined buy $2 billion worth of U.S. 
beef products every single year, and that is nearly \1/4\ of 
all U.S. beef exports each year, and actually accounts for $69 
of that $300 worth of value realized by U.S. producers as a 
result of trade. USMCA keeps the good aspects of NAFTA, 
unrestricted, duty-free access for U.S. beef and cattle, and 
does not attempt to incorporate failed policies from the past, 
like mandatory country-of-origin labeling. Failure to maintain 
free trade with Mexico and Canada would be devastating to 
cattle producers, and it has only left other trade 
breakthroughs pending.
    The wait and see concern is particularly true with Japan, 
where U.S. beef faces a 38.5 percent tariff. Though Japan is 
still our number one destination for U.S. beef, the lower 
tariffs available to countries like Australia may soon begin to 
hamper our growth in Japan if we don't act quickly. We have 
already seen the moderating of export totals in Japan, in spite 
of their increase of demand in the nation.
    I implore the Members of this body and the entire U.S. 
Congress to do two things on trade, moving forward. First, 
reject calls for failed policy of the past like M-COOL. Second, 
quickly ratify USMCA on behalf of America's ranchers and beef 
producers.
    While trade is our singular focus at the moment, there are 
many other concerns in this industry that I, and others from 
the TSCRA and the industry, will continue to discuss. Those 
range from the fake meat movement to the accurate portrayal of 
sustainability in ranching and needed regulatory reforms.
    Finally, I would be remiss if I didn't conclude by thanking 
this body for your work on behalf of America's cattle 
producers. That is especially evident in your work on the 2018 
Farm Bill, which maintains a strong conservation title and 
provides funding for a more robust U.S. only foot-and-mouth 
disease vaccine bank. Thank you for those two vitally important 
components and your continued attention to their 
implementation. Again, I appreciate your time and your 
invitation, and I look forward to your questions.
    [The prepared statement of Mrs. Georgiades follows:]

 Prepared Statement of Kelley Sullivan Georgiades, Owner and Operator, 
 Santa Rosa Ranch; Member, Board of Directors, Texas and Southwestern 
                Cattle Raisers Association, Crockett, TX
    Good morning, Mr. Chairman and distinguished Members of the 
Committee. My name is Kelley Sullivan Georgiades, and I am a fourth 
generation cattle producer from Crockett and Navasota, Texas, where I 
own and operate Santa Rosa Ranch.
    I am here today on behalf of the 142 year old Texas and 
Southwestern Cattle Raisers Association to share our opinion on the 
current state of the cattle industry and our most pressing challenges 
for the future.
    Our nation is home to 94.8 million head of cattle. My home State of 
Texas has 13 million, more than any other state and almost double the 
number of the next closest.
    The beef we produce not only provides Americans with a high-
quality, safe and nutrient-dense form of protein, but the Texas cattle 
industry is also the leading contributor to the state's agricultural 
economy with annual sales in excess of $12 billion, nearly \1/2\ (49%) 
of the total for all commodities.
    Though the cattle industry is robust and resilient, it is certainly 
not without its challenges.
    I would encourage the Members of this Committee to pursue policies 
that help address these challenges and secure a strong future for our 
nations cattle producers.
    Chief among these issues is trade.
    For cattle producers, maintaining and building demand for U.S. beef 
products is essential. The simple fact is that 96% of the world's 
consumers live outside of the United States. These customers have 
become a necessary part of the industry. In 2018 we sold more than $8.3 
billion in U.S. beef products abroad.
    Foreign consumers often demand cuts that are not highly sought 
after in the domestic market. If you go to a steakhouse in the United 
States, it is doubtful that you will find beef tongue listed among the 
ribeyes and other top beef cuts. Yet, in those countries who are our 
largest export markets, such as Japan, South Korea, Mexico, Canada and 
Hong Kong, beef tongue and other beef varietal cuts are a delicacy and 
fetch a premium price.
    That premium and the additional demand from foreign consumers 
increases the value of each animal sold in the U.S. by almost $300 per 
animal.
    We would like to see that value increase because, for many cattle 
producers, that $300 per animal may already be the difference between a 
successful business and bankruptcy. It cannot shrink. We are a low-
margin industry.
    The most important thing this Congress can do for American ranchers 
is to approve the U.S.-Mexico-Canada trade agreement (USMCA).
    Mexico and Canada, combined, buy $2 billion in U.S. beef products 
every single year. That's nearly \1/4\ of all U.S. beef exports each 
year and accounts for $69 of those $300 realized by U.S. producers as a 
result of trade.
    USMCA keeps the good aspects of NAFTA--unrestricted, duty-free 
access for U.S. beef and cattle--and does not attempt to incorporate 
failed policies from the past, like mandatory country-of-origin 
labeling.
    Failure to maintain free trade with Mexico and Canada would be 
devastating to cattle producers, and it has also left other trade 
breakthroughs pending.
    The ``wait and see'' concern is particularly true with Japan, where 
U.S. beef faces a 38.5% tariff. Though Japan is still the number one 
destination for U.S. beef, the lower tariffs available to countries 
like Australia may soon begin to hamper our growth in Japan if we don't 
act quickly. We have already seen the moderating of export totals to 
Japan, in spite of their increase in beef demand as a nation.
    I implore the Members of this body and the entire U.S. Congress to 
do two things on trade moving forward.

  1.  Reject calls for failed policies of the past, like M-COOL.

  2.  Quickly ratify USMCA on behalf of America's ranchers and beef 
            producers.

    While trade is our singular focus at the moment, there are many 
other concerns in our industry that I and others from TSCRA and the 
industry will continue to discuss. Those range from the ``fake meat 
movement'' to the accurate portrayal of sustainability in ranching and 
needed regulatory reforms.
    Finally, I would be remiss if I didn't conclude by thanking this 
body for your work on behalf of America's cattle producers. That is 
especially evident in your work on the 2018 Farm Bill, which maintains 
a strong conservation title and provides funding for a more robust U.S. 
only Foot-and-Mouth Disease vaccine bank. Thank you for those two 
vitally important components and your continued attention to their 
implementation.
    Thank you, and I look forward to your questions.

    The Chairman. Thank you very much. I appreciated your 
points that you made, and I am certain that we will get back to 
those as it relates to the questions that Members will be 
wanting to ask.
    We will now get to the last two witnesses, and Mr. Steven 
Salmon, a witness of Congressman Conaway's from San Angelo, 
Texas, representing the Texas Sheep and Goat Raisers 
Association of Texas. Mr. Salmon, you are first.

STATEMENT OF STEPHEN J. SALMON, RANCHER; MEMBER, AMERICAN SHEEP 
 INDUSTRY ASSOCIATION; DIRECTOR, TEXAS SHEEP AND GOAT RAISERS' 
                       ASSOCIATION, SAN 
                           ANGELO, TX

    Mr. Salmon. Good morning, Chairman Costa, Ranking Member 
Rouzer, Members of the Committee. Thank you for the opportunity 
to speak with you today. I am Stephen Salmon from central west 
Texas, a member of the American Sheep Industry Association, the 
Director of Texas Sheep and Goat Raisers Association, and a 
third-generation rancher, raising sheep in west Texas. I am 
here today to represent the nation's 100,000 sheep producers.
    The trade dispute with China has made a big impact on our 
ability to market fiber, with tariffs severely hindering trade 
with our largest export market. Since the implementation of 
tariffs, we have seen raw wool exports drop by 85 percent in 6 
months, and sheepskin exports drop nearly 70 percent in value. 
Once a valuable asset, sheepskins now either have no value or 
even result in a loss to producers.
    As the Administration continues to review and implement 
ways to aid producers during what we hope is a short-term loss 
of this valuable market, we ask that sheep producers be 
included in that conversation.
    ASI strongly supports the ratification of the U.S.-Mexico-
Canada agreement, and urges Congress to act swiftly. We have 
seen the benefits of trade, but we have also experienced 
firsthand the detriments, as over \1/2\ of the lamb consumed in 
the U.S. is imported.
    We support a level playing field, and as the Administration 
looks to negotiate new agreements with China, the EU, the UK, 
and others, we urge a cautious approach. Most of these 
countries directly or indirectly subsidize their producers, 
which does not happen in the U.S.
    About \1/2\ of the domestic sheep spend time grazing on 
Federal land, including rangelands managed by the Forest 
Service. Over the years, the Forest Service has systematically 
removed grazing allotments and sheep producers from Federal 
lands in the name of bighorn sheep management, despite existing 
reasonable, science-based solutions to accommodate both 
domestic sheep grazing while protecting the health of the 
bighorn sheep. As such, we urge Congress to ensure true 
multiple use of our nation's Federal lands.
    As Congress prepares to reauthorize mandatory price 
reporting, current confidentiality rules restrict the 
information available, hindering the lamb price insurance 
products that rely on USDA price reporting information. We 
believe issues of confidentiality need to be resolved sooner, 
rather than later.
    We strongly support the Minor Use Animal Drug Program. We 
urge USDA to make funds available under Section 12101 of the 
2018 Farm Bill to ensure sheep producers have access to 
critical technologies, many of which are successfully used by 
our international competition, but not labeled for use in the 
United States.
    Coyotes, mountain lions, wolves, and bears kill thousands 
of lambs and calves each year. These losses can cost ranchers 
and producers more than $232 million annually. Every dollar 
spent on predation management returns $3 in livestock value. 
Predator management also supports abundant wildlife, hunting, 
and other recreation activities. We applaud Congressional 
efforts to ensure USDA Wildlife Services has the resources 
needed to carry out livestock protection efforts.
    The domestic sheep industry relies heavily on the work of 
ARS' U.S. Sheep Experiment Station, and the Animal Disease 
Research Unit. The work carried out by ARS researchers and 
faculty is critical to our ability to remain productive and 
push back against flawed science. Likewise, continued support 
for the National Scrapie Eradication Program must remain a 
priority.
    Finally, sheep herd ranchers depend on the H-2A Sheep 
Herder Program to care for more than \1/3\ of the ewes and 
lambs in the United States. A workable guestworker program, 
including special procedures for herding, is essential now and 
in any future legislation.
    Thank you for your support of the livestock industry, 
allowing me to visit with you about our priorities. I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Salmon follows:]

  Prepared Statement of Stephen J. Salmon, Rancher; Member, American 
  Sheep Industry Association; Director, Texas Sheep and Goat Raisers' 
                      Association, San Angelo, TX
Introduction
    Chairman Costa, Ranking Member Rouzer, and Members of the 
Subcommittee, thank you for the opportunity to speak with you today. I 
am Stephen Salmon, from central west Texas, a member of the American 
Sheep Industry Association (ASI), and a director of the Texas Sheep and 
Goat Raisers' Association. I have been involved with both organizations 
for over 20 years. I am here today to represent the nation's 100,000 
sheep producers. America's sheep producers continue a strong tradition 
of supporting wildlife habitat, natural resources, and open space 
across the country--all enabled by careful resource management while 
grazing our flocks on private and Federal lands. Our members support 
rural communities, the tax base, and local businesses providing safe 
domestic lamb and wool. In fact, the economic impact of sheep and wool 
production on our nation's economy is immense. From on the farm and 
ranch to the retail level, the sheep industry has a total retail impact 
in excess of $2.7 billion and supports nearly 98,000 sheep-industry 
related jobs.
    I am a third-generation rancher raising sheep, goats and cattle. 
Our operation is located north of San Angelo, in a semi-arid region of 
Texas, where we typically receive 16-20" of rain per year. This year 
has been exceptional for our operation, with rain events that have 
filled lakes and streams that have been dry for many years. Like 
everyone here we understand the cyclical nature of agriculture and the 
markets and for that reason we strongly support agricultural research, 
price discovery and effective predator control. We also market sheep, 
goats, lambs, wool and mohair. For our us the trade dispute with China 
has made a big impact on our ability to market fiber with tariffs 
severely hindering trade with our largest export market.
Trade
    Continued strength in the international marketing of lamb and wool 
requires a commitment to the promotion and export of U.S. wool to 
export markets through strong USDA Foreign Agricultural Service (FAS) 
Program funding.
    ASI is the cooperator with the FAS for American wool and sheepskins 
and finds success every year in securing customers with the Market 
Access Program, the Foreign Market Development Program, and the Quality 
Samples Program. In 2001, ASI relaunched an export program for wool and 
significantly improved the competition of American wool. We now export 
50 percent of American wool, on average, and have at least doubled the 
number of U.S. firms that offer wool to overseas markets.
    ASI strongly supports the ratification of the United States Mexico 
Canada Agreement and urges Congress to act swiftly. We have seen the 
benefits of trade and have made major progress first with the reopening 
of Taiwan and most recently with the reopening of Japan to American 
lamb. But we have also experienced first-hand the detriments of trade 
as over half of the lamb consumed in the U.S. is imported. The vast 
amount of imported lamb distorts traditional market signals to 
producers for expansion and muddies price discovery. We support fair 
trade on a level playing field, and as the Administration looks to 
negotiate future agreements with China, the European Union, the United 
Kingdom and others; we urge a cautious approach. We do not currently 
enjoy the ability to export U.S. lamb to many of these countries and 
most enjoy the benefit of direct or indirect subsidies to their sheep 
industry. Again, we welcome the opportunity to compete, but we can only 
compete on a level playing field.
    The current trade disruption with China has been tremendously 
challenging for our U.S. wool exports. Prior to the implementation of 
tariffs, 72 percent of U.S. raw wool exports and 80 percent of U.S. 
sheep skins were sent to China. Since the implementation of tariffs, we 
have seen raw wool exports drop by 85 percent and sheep skin exports 
drop by nearly 70 percent in value. Once a valuable asset, sheep skins 
now have either no value or even result in a loss to producers at the 
processing level. As the Administration continues to review and 
implement ways to aid producers during what we hope is a short-term 
loss of this valuable market, we ask that wool and sheep skin producers 
be included in the conversation.
Bighorn Sheep in Domestic Sheep Grazing Allotments
    Nationally, about \1/2\ of all domestic sheep spend time grazing on 
Federal lands, including rangelands managed by the U.S. Forest Service 
(USFS). Over the years, the USFS has been systematically removing 
domestic sheep ranchers from Federal lands in the name of bighorn sheep 
management, despite the fact that there are reasonable, science-based 
solutions to accommodate domestic sheep grazing while protecting the 
health of bighorn sheep populations. In mid-2016, the USFS announced 
that it may close some allotments in the Ashley National Forest and the 
[Uinta]-Wasatch-Cache National Forest in Summit County, Utah due to 
bighorn sheep concerns. This is being done without any offer of 
alternative allotments. In total, three allotments could be closed and 
a fourth allotment reduced. The ranchers on these allotments have 
letters from the USFS detailing that when they introduced bighorn sheep 
to the area, there would not be an impact to the domestic sheep 
population. There are many examples of these egregious actions.
Mandatory Price Reporting
    In September 2015, the President signed into law the Agriculture 
Reauthorization Act of 2015 which included an extension of the 
Livestock Mandatory Reporting Act of 1999 (MPR). Unfortunately for 
sheep, this reauthorization has not adjusted to changes in the lamb 
meat industry. Of particular concern is the implementation of current 
confidentiality rules of the U.S. Department of Agriculture (USDA) 
which restricts the information available. Additionally, Federal lamb 
price insurance products available to the sheep industry rely on the 
USDA price reporting. ASI is in ongoing discussions with USDA and the 
Agriculture Committees in the House and Senate to resolve this issue as 
the date for reauthorization nears. Increased consolidation in the 
packing industry across livestock will continue to hinder producers' 
access to accurate price reports and we believe issues of 
confidentiality will need to be resolved sooner rather than later to 
preserve this program and the risk management tools that rely on it.
FDA Minor Use Animal Drug Program
    It is also critical that producers have continued access to key 
technologies. We strongly support the Food and Drug Administration 
(FDA) Minor Use Animal Drug Program and its historic collaboration with 
USDA's National Institute of Food and Agriculture (NIFA). The targeted 
use of biologics and pharmaceuticals within a veterinary-client-patient 
relationship is key to our ability to maintain flock health and provide 
a safe wholesome product. We urge the creation of a mechanism for NIFA 
funding for minor use animal drug research through the National 
Research Support Project No. 7 (NRSP-7). NRSP-7 has an established 
record with land-grant universities and has demonstrated excellent 
results for minor use drug research for nearly 40 years. We urge the 
USDA to make funds available under Section 12101 of the 2018 Farm Bill 
to ensure sheep producers have access to critical technologies, many of 
which are currently being used with great success by our international 
competition, but not labeled for use in the United States.
Wildlife Services
    Coyotes, mountain lions, wolves, and bears kill tens of thousands 
of lambs and calves each year. Livestock losses attributed to these 
predators cost ranchers and producers more than $232 million annually. 
For years, ASI has led the aggressive defense of livestock protection 
by bringing together a diverse coalition of supporters in the areas of 
aquaculture, aviation, forestry, livestock production, range/forage 
management, and state departments of agriculture to ensure the 
programs' survival. Earlier this year, ASI led a coalition of 219 
organizations to sign a letter supporting Wildlife Services funding.
    Every dollar spent on predation management returns $3 in livestock 
value saved. This has a tremendous impact on sheep and cattle producers 
and the rural economies they support. Predator management also supports 
abundant wildlife, hunting, and recreation activities on private and 
Federal land. We applaud Congressional efforts ensuring USDA Wildlife 
Services is fully funded and has the resources needed to carry out 
their livestock protection efforts.
    We are also keenly aware that existing, highly effective predator 
control products like sodium cyanide and sodium fluoroacetate (Compound 
1080) are under attack and their continued use is threatened. These are 
the best available products for predator control; highly targeted, 
species specific, environmentally sound and humane. Despite enhanced 
guidance from Wildlife Services on the use and placement of these tools 
and a track record of EPA approval, these products continue to come 
under attack from Congress. The industry is committed to responding 
with science, but also a keen eye to find alternatives that respond to 
the concerns of the public. Developing alternatives that meet or exceed 
the attributes of current products is a great challenge, and we rely on 
the work of Wildlife Services Methods Development through the National 
Wildlife Research Center in Fort Collins, CO. We urge Congress to 
devote resources to that program for the development of alternatives to 
ensure U.S. sheep producers remain competitive worldwide.
U.S. Sheep Experiment Station (USSES)
    The domestic sheep industry relies heavily on the work of the U.S. 
Sheep Experiment Station (USSES) and the Animal Disease Research Unit 
(ADRU). Both facilities work collaboratively and are critical 
components of the USDA's Agriculture Research Service. As our nation's 
only experiment station primarily dedicated to sheep production, the 
work carried out by these researchers and faculty are critical to our 
ability to remain productive and push back against flawed science on 
the range and in the area of animal health. In the past, administrative 
action has worked to limit the scope of these facilities. Such action 
not only threatens the viability of this resource for producers, but 
also threatens the USSES' unparalleled historic sage grouse data. We 
support the merger of the USSES and ADRU and encourage growth in their 
roles in food-animal science, rangeland systems, and animal health 
programs. These stations have a dedicated history of careful use of 
taxpayer funds to solve issues and challenges for our producers and 
counter flawed science from those wishing to remove livestock and 
multiple uses from our nation's public lands. We appreciate USDA's 
recognition in the role of the USSES as a critical part of our nation's 
agricultural research system and will continue to work with Congress, 
stakeholders and collaborators to build that resource.
Scrapie Eradication
    Working collaboratively with USDA/APHIS and state partners, the 
American Sheep Industry has nearly eliminated scrapie from the United 
States. Official identification, surveillance, and traceability of both 
sheep and goats are critical to continuing and maintaining these 
efforts in order to preserve and enhance current and future export 
markets. Continued and increased funding of the National Scrapie 
Eradication Program must remain a priority to expand and build on 
export opportunities.
H-2A Temporary Agricultural Workers
    The American sheep industry has a decades long history of a 
reliable, consistent, and legal workforce. Sheep ranchers depend on the 
H-2A sheepherder program to help care for more than \1/3\ of the ewes 
and lambs in the United States. To meet those needs, the industry has 
largely participated in temporary visa programs (in various forms) 
since the 1950s. As a result, sheep producers employ a legal labor 
force with an estimated eight American jobs created/supported by each 
foreign worker employed.
    Increased regulation with ambiguous policies and enforcement have 
made the H-2A sheepherder program very costly for employers. In the 
2015 re-write of the sheepherder provisions, our program now 
constitutes over half of all pages of regulations governing the entire 
H-2A program, even though we are only a small percent of total H-2A 
employees in the United States. A workable temporary foreign labor 
program is essential for the sheep industry including the special 
procedures for herding in future legislation involving immigration 
workers.
2018 Farm Bill
    ASI strongly supported the Agricultural Improvement Act of 2018 
(2018 Farm Bill) and appreciates the leadership of the House 
Agriculture Committee. The first and most important national security 
concern is the ability of a country to clothe and feed its citizens. 
The small investment made in agriculture by the farm bill when compared 
to the Federal budget and the safe, affordable, and abundant food 
supply enjoyed by the U.S. illustrates the wise investment farm bill 
programs provide.
Conclusion
    Thank you for your support of the livestock industry and for 
allowing me to visit with you about our priorities.

    The Chairman. Well, thank you and we appreciate your 
testimony.
    And we have our last witness, and then we will move on to 
the questions by Members of the Committee. Mr. David D. Herring 
of Lillington, North Carolina, representing the National Pork 
Producers Council. Mr. David D. Herring, please make your 
presentation.

 STATEMENT OF DAVID DEE HERRING, VICE PRESIDENT, TDM FARMS/HOG 
              SLAT INC.; PRESIDENT, NATIONAL PORK 
               PRODUCERS COUNCIL, LILLINGTON, NC

    Mr. Herring. Thank you, Chairman Costa, Ranking Member 
Rouzer, and Members of the Subcommittee. My name is David 
Herring. I am a pork producer from Lillington, North Carolina, 
and President of the National Pork Producers Council.
    NPPC is a national association representing the interest of 
60,000 U.S. pork producers. The U.S. pork industry is the 
world's lowest cost producer and the top exporter, annually 
shipping more than $6 billion to foreign destinations. However, 
despite significant growth in the U.S. pork sector, we are 
facing numerous challenges, both at home and abroad, that if 
left unaddressed, could pose significant harm to our farms, our 
communities, and ultimately, consumers.
    One of the most damaging threats to the U.S. pork industry 
has been the punitive tariffs that China and other countries 
have imposed. Market analysts projected 2018 to be a profitable 
year for U.S. hog farmers. Unfortunately, restricted market 
access from trade disputes caused a loss last year to our 
farmers.
    This year, the average hog farmer is making a very small 
profit through the first 6 months of the year. Those small 
profits would be much higher, were it not for trade retaliation 
from China and other markets. The U.S. pork industry had the 
dubious distinction of being on three retaliation lists over 
the last year in China and Mexico. While Mexico's tariffs on 
U.S. pork have been lifted, China's 50 percent retaliatory 
tariff on top of the existing 12 percent duty on U.S. pork 
remains. China is the largest producer, consumer, and importer 
of pork in the world, but at a 62 percent tariff rate, U.S. 
pork producers are losing $8 per animal, or $1 billion on an 
annualized basis.
    There is an unprecedented sales opportunity for U.S. pork 
producers in China, as it continues to battle the spread of 
African Swine Fever and experiences a major reduction in its 
domestic production. Were it not for the retaliatory duties on 
U.S. pork, we would be in an ideal position to meet China's 
need for increased pork imports and single-handedly put a huge 
dent in the U.S. trade imbalance with China. Instead, this 
trade opportunity is fueling jobs, profits, and rural 
development for our competitors. We seek an end to the trade 
dispute with China.
    NPPC is also deeply concerned as we helplessly watch the EU 
and the CPTPP nations take market share away from us in Japan, 
our largest value export market. We know the Administration is 
engaged in trade negotiations with Japan, but those 
negotiations can't move quickly enough, as far as we are 
concerned.
    Additionally, pork producers are eager to see ratification 
of the U.S.-Mexico-Canada trade agreement. USMCA agreement 
preserves zero-tariff pork trade in North America, Canada, and 
Mexico, and both those markets account for more than 40 percent 
of all U.S. pork exports, and support 16,000 U.S. jobs. We look 
forward to Congressional ratification of this agreement.
    In addition to trade issues, pork producers are fighting 
another battle when it comes to preventing the spread of 
African Swine Fever. The risk of ASF is growing as outbreaks 
continue in Europe, China, and other parts of Asia. We can all 
agree that we need to keep this deadly disease out of the USA.
    NPPC is requesting appropriations funding for 600 
additional U.S. Customs and Border Protection Agricultural 
Inspectors at our borders, bringing the total number to 3,000.
    Implementation of the 2018 Farm Bill as intended by 
Congress is another foreign animal disease prevention priority 
for U.S. pork producers. The 2018 Farm Bill includes important 
funding for development of a foot-and-mouth disease vaccine 
bank. The U.S. pork industry fought hard to secure funds to buy 
vaccines to protect animal well-being and farmers' livelihood 
from the real FMD threat facing the industry today. USDA must 
utilize these funds provided by Congress to carry out its 
intent to safeguard the rural economy.
    Last, there is a severe shortage of labor in the pork 
industry, both on the farm and in packing plants, that 
undermines the industry's commitment to the high standards of 
animal care. Pork production is a year-round endeavor. 
Accordingly, the current H-2A visa program does not work for 
pork farmers, as it only addresses seasonal agriculture 
sectors. We need visa reform so pig farmers have access to a 
sustainable supply of labor throughout the year.
    Pork is one of the United States' most successful and 
globally-competitive products, but a handful of obstacles are 
preventing our farmers from realizing their full potential for 
their families, consumers, and the American economy. Addressing 
these challenge will make U.S. hog farmers even more 
competitive, expand production, fuel job growth, and contribute 
to rural communities across the country.
    Thank you for the opportunity to testify, and I look 
forward to any questions.
    [The prepared statement of Mr. Herring follows:]

Prepared Statement of David Dee Herring, Vice President, TDM Farms/Hog 
 Slat Inc.; President, National Pork Producers Council, Lillington, NC
Introduction
    NPPC is a national association representing 42 state producer 
organizations. It represents the Federal policy and global interests of 
60,000 U.S. pork producers. The U.S. pork industry is a major value-
added component of the agricultural economy, and a significant 
contributor to the overall U.S. economy. In 2018, pork producers 
marketed about 124 million hogs, and those animals provided total cash 
receipts of more than $20 billion. Overall, an estimated $23 billion of 
personal income and $39 billion of gross national product are supported 
by U.S. pork.
    The U.S. pork industry provides 26 billion pounds of safe, 
wholesome and nutritious meat protein to consumers worldwide. Exports 
are vital to the livelihoods of America's pork producers. New 
technologies have been adopted and productivity has been increased to 
maintain the U.S. pork industry's international competitiveness.
    Exports of pork add significantly to the bottom line of each pork 
producer and support approximately 110,000 jobs in the U.S. pork and 
allied industries. In 2018, U.S. pork exports totaled 5.3 billion 
pounds--valued at nearly $6.4 billion. That represented over 25 percent 
of U.S. production, and those exports added more than $51 to the value 
of each hog marketed with the average price received for a market hog 
in 2018 being $141.
    However, despite significant growth in the U.S. pork industry, it's 
facing numerous challenges both domestically and abroad, including a 
serious labor shortage on U.S. farms, punitive, retaliatory trade 
tariffs, efforts to combat African Swine Fever and other animal 
diseases, and ensuring proper oversight over gene-edited livestock.
Trade Disputes
    One of the most damaging threats to the U.S. pork industry has been 
the punitive, retaliatory trade tariffs that China and other countries 
have imposed. Mostly because of trade agreements, the United States is 
the leading global exporter of pork. We ship more pork to the 20 
countries covered by trade agreements than we do to the rest of the 
world combined. That's why NPPC has and will continue to devote so much 
focus to expanding export opportunities.
    As a result, U.S. pork is an attractive candidate for trade 
retaliation. America's pork producers--and many other farmers--are 
experiencing such reprisal now. After more than a year of trade 
disputes impacting some of U.S. pork's most important markets, we saw 
overall exports stagnate. The value of exports dropped one percent in 
2018; volume was flat. We have been squarely focused for more than a 
year on influencing the Administration to end these disputes, and to go 
on the offensive to negotiate new trade agreements in markets promising 
major growth opportunities for U.S. pork producers.
    The U.S. pork industry had the dubious distinction of being on 
three retaliation lists over the last year: China and Mexico related to 
U.S. actions under Section 232 of the Trade Expansion Act of 1962 and 
China in response to U.S. tariffs imposed under Section 301 of the 
Trade Act of 1974. While Mexico's tariffs on U.S. pork tariffs have 
been lifted in response to the U.S. lifting its North American metal 
tariffs, China's 50% retaliatory tariff on U.S. pork--on top of the 
existing 12% duty on U.S. pork--remains. China is the largest producer, 
consumer and importer of pork in the world but, at a 62% tariff rate, 
U.S. pork producers are losing $8 per animal, or $1 billion on an 
annualized, industry-wide basis because of the punitive tariffs it 
faces.
    China holds more potential than any other market in the world for 
increased U.S. pork sales. There is an unprecedented sales opportunity 
for U.S. pork producers in China as that country continues to battle 
the spread of ASF and experiences a major reduction in domestic 
production. Were it not for the retaliatory duties on U.S. pork, we 
would be in an ideal position to meet China's need for increased pork 
imports and single handedly put a huge dent in the U.S. trade imbalance 
with China too. Instead, this trade opportunity is fueling jobs, 
profits, and rural development for our competitors. We seek an end to 
the trade dispute with China and the restoration of more favorable 
access to the world's largest pork-consuming nation.
    NPPC is also deeply concerned as we helplessly watch the EU and the 
CPTPP nations take market share away from us in Japan, our largest 
value export market. We are going to continue to hemorrhage market 
share unless we quickly get the same market access our competitors have 
in Japan. We know the Administration is engaged in trade negotiations 
with Japan, but those negotiations can't move quickly enough as far as 
we are concerned.
    Additionally, pork producers are eager to see ratification of the 
U.S.-Mexico-Canada (USMCA) trade agreement. The USMCA agreement 
preserves zero-tariff pork trade in North America. Under the terms of 
our previous agreement with our North American trading partners, Mexico 
and Canada became our No. 1 and No. 4 export markets, respectively. In 
fact, those two countries account for more than 40 percent of all U.S. 
pork exports, and support 16,000 U.S. jobs. We look forward to 
Congressional ratification of this agreement.
    Meantime, NPPC continues to advocate for Thailand to eliminate its 
de facto ban on U.S. pork, based on unwarranted trade barriers erected 
to protect its domestic industry and that lack scientific grounding. If 
Thailand does not open its market to U.S. pork, it should lose its 
benefits under the U.S. Generalized System of Preferences.
African Swine Fever
    In addition to trade issues, pork producers are fighting another 
battle when it comes to preventing the spread of African Swine Fever, 
or ASF. The risk of ASF, an animal disease affecting only pigs and with 
no human health or food safety risks, is growing as outbreaks continue 
in Europe, China and other parts of Asia. We can all agree that we need 
to keep this deadly disease out of the USA. NPPC has been very active 
in driving awareness of the disease and how to mitigate its risk within 
the industry.
    NPPC has been actively advocating at USDA and with the U.S. Customs 
and Border Inspection for strengthened biosecurity at our borders. To 
date, USDA and U.S. Customs and Border Inspection have increased and 
provided more robust inspections, in addition to working with Canadian 
and Mexican officials on a North American coordinated approach to ASF 
defense, response and trade maintenance.
    We are encouraged by efforts to date, but more can be done. NPPC is 
requesting appropriations funding for 600 additional U.S. Customs and 
Border Protection Agricultural Inspectors at our borders, bringing the 
total number to 3,000. The most likely path for a foreign animal 
disease to enter the country would be through the importation of 
infected animals or contaminated products.
    We are also pushing U.S. Customs and Border Protection to work with 
shipment companies to strengthen safeguards against illegal product 
shipments and advocating for the maintenance or increase of airline 
ticket and cargo fees to help fund the increase in inspectors.
Farm Bill Implementation
    Congressional efforts on strengthening our borders to prevent 
animal disease prevention have been helpful. The 2018 Farm Bill, signed 
into law in December 2018, contained language championed by NPPC to 
establish permanent, mandatory funding for animal disease prevention 
and preparedness efforts. The bill also funds the Market Access Program 
and the Foreign Market Development Program that support export markets 
for U.S. farm goods. Animal Disease Prevention and Management 
provisions include $150 million of mandatory funding, with Secretary 
discretion for additional funding across the development of a Foot-and-
Mouth Disease (FMD) vaccine bank, the National Animal Disease 
Preparedness and Response Program and the National Animal Health 
Laboratory Network.
    An FMD vaccine bank is needed to quickly contain and eradicate an 
outbreak, which would immediately close all export markets to U.S. 
meat. The U.S. pork industry fought hard to secure funds to buy 
vaccines to protect animal well-being and farmers' livelihood from the 
very real FMD threat facing the industry today. The 2018 Farm Bill 
directed the Secretary to ``prioritize the acquisition and maintenance 
of sufficient quantities of FMD vaccine.'' The U.S. Department of 
Agriculture (USDA) must utilize the funds provided by Congress to carry 
out its intent to help safeguard rural economies and the livestock 
sector.
    NPPC is monitoring USDA's implementation plans closely and will 
continue to push for this implementation, one that will significantly 
strengthen our ability to quickly contain an outbreak of FMD which, 
unlike African Swine Fever (ASF), can be controlled with vaccine.
Labor Shortage
    Another challenge that the U.S. pork industry is facing involves a 
serious labor shortage that undermines our commitment to the highest 
standards of animal care. Current visa programs widely used by pork 
producers are not effectively addressing the issue. Without visa reform 
to support a sustained, viable workforce for U.S. agriculture, animal 
welfare is jeopardized, and production costs will increase, leading to 
higher food prices for consumers. In some cases, a shortage of labor 
could lead to farms and packing plants shutting down, causing serious 
financial harm to those operations and their communities. According to 
a study from Iowa State University researchers, the U.S. pork industry 
faces a constrained rural labor supply due to an aging native-born 
workforce and falling birth rates, making access to foreign-born 
workers a critical matter for the prosperity of rural America. Reform 
is needed to ensure that one of the most competitive U.S. agriculture 
sectors can continue to provide safe and affordable pork to consumers 
worldwide.
    NPPC supports visa system reform that provides agricultural 
employers with sustained access to year-round labor. We support a 
bipartisan amendment from Reps. Henry Cuellar of Texas and Dan Newhouse 
of Washington State that would expand the H-2A program to non-seasonal 
ag workers. We support reform that establishes a legal and productive 
workforce, while not unduly burdening employers.
    NPPC's focus is on support for H-2A program expansion and to move 
oversight of this program from the Department of Labor to the USDA, 
where livestock agriculture's needs are better understood. As currently 
defined, the H-2A visa program has limitations, since it applies only 
to seasonal ag workers. NPPC supports legislation that opens the 
program up to year-round livestock ag workers and is easier to navigate 
for employers.
Gene Editing
    There is a brewing battle in our scientific laboratories over gene-
edited livestock. NPPC recently launched a campaign, ``Keep America 
First in Agriculture,'' to highlight the need to establish the right 
regulatory framework for gene-edited livestock, an innovation that 
promises to strengthen U.S. pork's competitive position globally. Gene 
editing technology, which introduces useful genetic variation into food 
animal breeding programs, promises significant animal health benefits, 
including a natural immunity to disease and a reduction in the need for 
antibiotic use.
    While countries like Canada, Brazil and Argentina are moving 
quickly to grab a competitive advantage by establishing regulatory 
structures that support the development of this technology, the U.S. is 
running the risk of falling far behind as a result of a regulatory land 
grab by the Food and Drug Administration (FDA). Under FDA regulation, 
gene editing faces an impractical, lengthy and expensive approval 
process, threatening hundreds of thousands of jobs and nearly six 
percent of U.S. Gross Domestic Product. Additionally, the FDA's 
regulation inaccurately classifies livestock as drugs and farms as 
drug-manufacturing facilities, creating significant challenges for the 
international trade in animals and animal products.
    That's why NPPC is working aggressively to establish oversight of 
gene-edited livestock on American farms with the USDA's Animal and 
Plant Health Inspection Service (APHIS), the agency best prepared to 
implement a regulatory framework that will allow us to realize gene 
editing's promise. The launch of our campaign received extensive media 
coverage and we plan to continue to advocate for policies that allow 
the U.S. to remain the global leader in agriculture.
Cell-Cultured Protein
    Similar to gene editing, the FDA made a regulatory land grab on 
cell-cultured protein (CCP) despite the Meat and Poultry Inspection 
Act, which clearly indicates that CCP--produced from cultured cells 
taken from pigs and other livestock--should be under the oversight of 
USDA's [Food] Safety Inspection Service (FSIS). Fortunately, on March 
7, 2019, the FDA and USDA's Food Safety Inspection Service signed a 
formal agreement to regulate CCP on terms that ensures a level playing 
field.
    USDA will have ultimate authority over product names, label claims 
and processing, while FDA will have oversight of the earlier cell 
collection and culture phases. It's critical that product names and 
label claims protect the investments livestock farmers have made to 
establish a definition of meat protein that is widely understood by 
consumers. Too many alternative products have been allowed to create 
consumer confusion at the expense of agriculture.
Proposition 12
    U.S. hog farmers are battling Proposition 12, a California ballot 
initiative that passed in the 2018 election. It outlaws the sale of 
pork in California that doesn't meet its arbitrary and unscientific 
housing standards. Set to go into full effect for pork products on Jan. 
1, 2022, it applies these regulatory mandates to not just the small 
handful of California pork producers, but across the entire pork 
industry operating outside of California borders. For pigs, Proposition 
12 mandates that each sow be provided a minimum of 24\2\ of space, far 
beyond what most group housing systems currently provide. Further, it 
prohibits the sows--which are pack animals that naturally huddle 
together--from ``touching another animal or the sides of the 
enclosure.'' This ballot initiative, funded by anti-livestock 
agriculture activists, was developed without the input of any experts 
on raising hogs. Virtually no pork producer nationwide will be able to 
comply with California's production requirements without undertaking 
significant financial impacts.
    As a result, Proposition 12 will dramatically reduce the supply of 
wholesome, affordable and nutritious pork available to the state, 
increasing the costs Californians pay for pork. California, the state 
with the nation's highest poverty rate, is now set to impose these 
costs on its most at risk citizens, including more than four million 
Californians who receive assistance for food purchases and the more 
than 18 percent of California children who live in poverty.
    We need to put a stop to uninformed state mandates like Proposition 
12 that impose arbitrary regulations on farms and other businesses 
outside of their borders.
Summary
    Pork is one of the United States' most successful and competitive 
products. But, a handful of obstacles are preventing our farmers from 
realizing their full potential for their families, consumers and the 
American economy. Addressing these challenges will make U.S. hog 
farmers even more competitive, expand production, fuel job growth and 
contribute to rural communities across the country.

    The Chairman. Thank you, and we appreciate the testimony by 
all the witnesses. Now, we get to the part where we get a 
chance for Members to ask questions as it relates to areas that 
are focused not only regionally, but nationwide as it relates 
to the livestock industry in this country.
    Let me begin. Nearly all of you have mentioned the 
importance of a workable solution to agricultural labor, and 
many of us have been working with our colleagues on the 
Judiciary Committee. I go back to comprehensive immigration 
reform with the Bush Administration and then the Obama 
Administration. In 2013 I think we came close. We had a bill 
that came out 68 to 32 out of the Senate, and if it could have 
come to the House floor, we would have passed it. 
Unfortunately, that is water under the bridge at this point, 
and we have struggled since that time to even do smaller 
limited reform.
    Would each of you share the impact if we maintain this 
continued curve of not fixing this broken labor system that it 
is going to have on your industry and on your own particular 
operations? Who would like to start? Yes, Mr. Zimmerman?
    Mr. Zimmerman. This has been an ongoing problem, like I 
mentioned.
    The Chairman. Yes.
    Mr. Zimmerman. We mentioned this 3 years ago, and it has 
only gotten worse. All of our processing plants are short of 
labor. I can speak on the farm perspective; we are also short 
of farm laborers. We need a visa program that addresses year-
round labor, and we have programs that are seasonal, but our 
plants operate year-round. The turkey industry is not about 
Thanksgiving. We are doing this year-round, and we need a visa 
program that would allow these employees to stay for the entire 
year.
    If we don't have--we have looked into automation----
    The Chairman. Do a lot of your workers--and automation is 
part of it--but have some members of the family that are here 
that have legal status and some that are not? In other words, 
households that are mixed?
    Mr. Zimmerman. I am sure that is the case in some areas, 
yes.
    The Chairman. Yes, and have you had any of the situation 
with the ICE operations that have requested audits to match W-2 
and I-9 efforts within plants and packing operations?
    Mr. Zimmerman. I would assume that is correct, but not 
being a processor, I can't speak to that exactly, no. But I 
would assume it is correct.
    The Chairman. Anyone else care to comment?
    Mr. Will. We have actually had firsthand relationships with 
that. We had some employees that had been with us for pre I-9, 
pre e-verification, a number of years prior to any of those 
being in place, and their paperwork was determined to be 
fraudulent. And while they were not allowed to work for us, 
nothing happened to them. And right now in this current 
employment with the joblessness down where it is, it is very 
hard to get people that can come in and be reliable and work. 
And we desperately need some sort of program. Again, we are in 
the same situation. We offer annual, year-round employment at a 
competitive wage with benefits.
    The Chairman. At a good salary that provides a good living 
of the people you employ.
    Mr. Will. Yes, it allows a reasonable living standard.
    The Chairman. Yes, and with these current inconsistencies 
about deportation and activities that have been talked about, 
what is the mood out there in your communities in terms of the 
workforce?
    Mr. Will. Well again, we have gone through the e-verify and 
gone through all of the verification systems. I don't think our 
employees have that concern.
    But just in general, I think it is unsettling in the 
community.
    The Chairman. We find a lot of----
    Mr. Will. If--family members or not.
    The Chairman. Yes. We find a lot of fear in our area in 
California for these farm communities because many of them have 
homes, many of them have been part of the community for 10, 15 
years. And the threat of being deported, obviously, has changed 
the whole dynamic.
    Mr. Will. Exactly.
    The Chairman. Let me switch over. The poultry and egg 
industries in California employ over 20,000 people. Mr. Will, 
you and I have talked in the office about direct experiences 
with Virulent Newcastle Disease a few months ago. Knowing this 
outbreak and the response we are seeing, what additional 
Federal support or guidance would you suggest that we consider 
to protect against future outbreaks?
    Mr. Will. I think the most important thing is that we 
retain some sort of active book about what we have learned 
through this outbreak, like we did in the 2003 outbreak. I feel 
like we kind of started over again with the USDA. At least keep 
some sort institutional memory of this, and then also keep some 
sort of monitoring program.
    We were very fortunate with this outbreak, catching it very 
early by actually show birds being taken into a veterinarian's 
office and detecting it that way, versus a commercial 
producer's breaking.
    The Chairman. To all of you, and I don't know who might 
want to weigh in. There are two major impacts in American 
agriculture right now, and that is trade and that is labor. 
What these trade impacts and these trade tariff wars, which I 
don't think anyone ultimately wins, how concerned are you 
about: first, the potential loss of these markets when they are 
re-sourced by other countries; and second, to what degree is 
this mitigation that we have come up with helped keep people in 
business?
    Mr. Herring. Well, I will speak from the pork producers. 
Trade is a win/win for the pork industry. We have gone from 
basically 1987 as a net importer of pork to today we export 
about 25 percent of all the product grown here.
    Trade has been huge for our industry, even as we struggle 
with the labor issues, too. Most of the pork is grown in the 
Midwestern states, but there is a lot of pork grown on the 
eastern part of the country.
    The Chairman. And that is year-round, pretty much?
    Mr. Herring. Year-round, and post-9/11, the legal workers 
are working in ag, are working in the pork industry, are aging 
out. We really urge Congress to create some kind of seasonal 
program that we can have access to workers.
    The Chairman. You are concerned that when we get past these 
trade wars, we are going to lose those markets?
    Mr. Herring. It takes two parties to consummate a deal into 
trade, and any time you make one of those parties uneasy, it is 
hard to get back in. It is very concerning.
    The Chairman. Okay, my time has expired. We will recognize 
the Ranking Member of the House Agriculture Committee, Mr. Mike 
Conaway, for any questions or comments he might have.
    Mr. Conaway. Thank you. Just a quick question for Mr. 
Salmon.
    You talked about China not being a market for your 
products, sheepskins and lamb and the wool, I think. Could you 
more specifically address exactly why we can't get access to 
the Chinese market, and what the potential for the Chinese 
market might be, should you have full access for U.S. products?
    Mr. Salmon. We always have the need for some sort of 
foreign export to somebody. China has been the leading industry 
right now, particularly for our fiber products, because we have 
very little textile industry left in the United States. Without 
being able to export wool or mohair or lambskin to China, 
Japan, some of those foreign countries, our products are 
limited as to what we can do with them.
    Mr. Conaway. What China does specifically with respect to 
retaliation? You had----
    Mr. Salmon. They increased their tariff side of it, but 
then they also quit just accepting the imports from us.
    Mr. Conaway. Based on science----
    Mr. Salmon. Based on the tariff war.
    Mr. Conaway. Okay. Each of you mentioned in your testimony 
the need to pass USMCA. Is there something specific with 
respect to what you didn't get to say that you would like to 
add to the testimony as to why that is important for each of 
your industries? Does anyone have anything else to add to your 
testimony as to why we need to get USMCA done quickly?
    Mr. Herring. Well, from the pork producers' side, it makes 
up about 32 percent of all our exports. They have been a great 
trading partner for us. And second, when we look at North 
America as a trading unit with United States, Mexico, and 
Canada, it is healthy for our partners to the south of us and 
the north of us to have good economies. It makes all of North 
America more competitive on a worldwide basis.
    Mr. Conaway. Your advice to Members of Congress would be to 
push on the process of asking leadership to get this done?
    Mr. Herring. I wish we could get it done tomorrow.
    Mr. Conaway. Anybody disagree with that? Kelley Sullivan 
Georgiades?
    Mrs. Georgiades. I would not disagree. I am in full 
agreement. In fact, Congressman Vela, his district in 
particular is one of the primary beneficiaries of robust trade 
specifically with Mexico.
    It is no question that Texas is a tremendous beneficiary of 
our relationship with our southern partner. It has been, like I 
said, prior to the USMCA, the NAFTA was wonderful for the beef 
industry, and that is why we want to see it ratified to be able 
to move forward and keep that duty-free access that we have for 
our beef. We already have agreement from Canada and Mexico to 
move forward, and again, it would just be robust for us to be 
able to get this ratified and get this in place. Because once 
we can do this, then we can begin to continue focusing--and 
like I mentioned in my testimony, our other trading partners, 
we are somewhat in limbo because it is kind of a wait and see 
attitude that our largest trading partners, in particular, 
Japan, are taking. I mean, we are not members of CPTPP any 
longer. We are facing a 38\1/2\ percent tariff on our beef into 
Japan, but they are looking at our--kind of our dangling USMCA 
issue out there, and this will help be able to secure this and 
move forward so that we can begin to continue fortifying those 
different agreements that we have with our other trading 
partners, from a beef perspective.
    Mr. Conaway. I appreciate that. Anyone else in the minute 
left?
    Then I yield back. Thank you, Mr. Chairman. I appreciate 
that.
    The Chairman. All right. Our next Member is Congressman TJ 
Cox from California for 5 minutes of questioning.
    Mr. Cox. Thank you, Mr. Chairman.
    Mr. Will, during your testimony, you mentioned the 
challenges faced by yourself and others regarding the outbreak 
of Virulent Newcastle in California. It is certainly something 
that you just discussed with Congressman Costa, but as you 
know, it is something that is having a major impact on the 
poultry economy in California and has the potential to be a 
major inhibitor of economic growth if it is not addressed 
certainly now, and adequately while we have the opportunity to 
eradicate the disease.
    If you wouldn't mind just kind of reiterating some of the 
points that you made with regard to Federal support or guidance 
in the future, and with respect to inoculated birds, what could 
better assist in protecting against outbreaks and spread of the 
disease?
    Mr. Will. Thank you. Part of it was that the impact of the 
disease outbreak is not only loss affected producers, but the 
trade impacts are often felt by the entire industry. USDA has 
done a great job in encouraging our trading partners to 
regionalize their response to outbreaks, meaning that they are 
to restrict only imports from regions directly impacted by the 
disease, but not all trading partners have respected this 
science-based practice, and some trade has suffered.
    In California currently, we have lost 1.2 million chickens. 
We have 301 responders on site as of the 10th of July 2019. We 
have had 470 premises that have been identified as positive, 
causing 1.24 million birds euthanized. Of those, 123,000 were 
backyard and 1.1 million were laying hens. They have had 7,530 
fallow checks going back to people who have had to be 
depopulated to make sure that they have stayed quarantined, and 
they have tested 34,000 birds.
    The biggest thing we have learned from this outbreak is 
early detection is key. Getting people on the ground to go in 
and to do the depopulations where they have to. We went 
through, unfortunately, right as it really ramped up, the 
virus, is when we had the budget shutdown, and one of the 
toughest things was we were all set, ready to depopulate some 
infected farms. However, the people were furloughed in USDA who 
were responsible for issuing all of the equipment necessary to 
do that work. All it did was it left several hundred thousand 
birds in the environment, continuing to shed virus for several 
weeks while we worked through all that paperwork.
    The Chairman. Would the gentleman yield?
    Mr. Cox. Yes.
    The Chairman. I am just curious in that whole effort, how 
important was the California Department of Food and Agriculture 
in working in conjunction with you folks to deal with the 
eradication program?
    Mr. Will. Well, they were absolutely huge, because at the 
start when it was first detected back in May of 2018, the CDFA 
came out and worked and implemented a Food Response Defense 
Plan for all of our processing plants, all of our farms. They 
loaned us veterinarians to walk and epidemiologists to walk on 
our properties to make sure that our defenses were proper, we 
were using the right chemicals, everything that we could do to 
minimize and mitigate risk. That early response was probably 
why we were able to contain it to only five commercial 
operations in the State of California.
    And in addition, they helped us in our processing plants to 
make sure we didn't spread it. As an industry, we have matured 
as well, going away from material that could be sent to any 
farm. Almost all of us now use dedicated in and out type of 
material to those farms in order to mitigate it.
    But at the start, it was mostly CDFA. It took USDA a while 
to ramp up and get in. During the 2003 outbreak, we had over 
1,000 responders, right now at 301 between state and Federal. 
We are at about the high that we have been.
    The Chairman. I thank the gentleman for yielding.
    Mr. Cox. Thank you, Chairman.
    Mrs. Georgiades, in fact, I just had to step out to talk to 
a beef producer who brought up in our conversation that the 
withdrawal of TPP was such a missed opportunity. I think you 
already touched on it, but in the sense the U.S. has withdrawn 
from TPP and the agreement was completed without us, what has 
that impact been on U.S. beef exports and are we already losing 
ground in Japan?
    Mrs. Georgiades. We have moderated as far as losing ground 
in Japan. Our imports into Japan have been incredibly robust. 
We, as U.S. beef producers, have essentially created that 
market.
    As I mentioned in my testimony, we are at 38\1/2\ percent 
versus our competitors, Australia, Canada, members of CPTPP, 
who are currently paying, I believe, around 22 percent, but 
eventually will be going nine percent. You can see that delta 
is going to make a tremendous impact.
    I sat on a panel actually with a gentleman from Canada that 
said that Japan is their number one target because of the 
market share we, U.S. beef producers, created. Pursuing a 
bilateral agreement, having some sort of agreement in place 
with Japan is going to be vital for us.
    I mentioned about the value of just the different cuts that 
go into Japan. I have been there twice myself actually to see 
just the robust demand that they have for our beef, and being 
able to get that type of agreement in place with Japan is going 
to be critical for our producers, moving forward.
    Mr. Cox. Great, thank you so much.
    The Chairman. All right. The gentleman's time has expired. 
I will now recognize the Ranking Member of the Subcommittee, 
Mr. Rouzer from North Carolina.
    Mr. Rouzer. Thank you, Mr. Chairman.
    Mr. Herring, in May this Subcommittee heard from Under 
Secretary Ibach regarding animal pest and disease threats, and 
USDA's capacity to protect the industry. Specifically, I asked 
Mr. Ibach about African Swine Fever, and USDA's coordination 
with Canada and Mexico in that regard. What is your feeling and 
what is your opinion? Are you confident that USDA and U.S. 
Customs and Border Protection have the resources needed to 
protect the industry?
    Mr. Herring. Chairman, Mr. Rouzer, in our industry, when 
you look at FMD or ASF or classical swine fever, that is the 
one caveat. Any foreign animal disease that would make me want 
to get out of this industry, because it will not only be 
devastating to pork producers, but all of agriculture.
    We have enjoyed a great relationship with USDA and CBP. I 
think both entities are working very hard. We have been in 
collaboration with them. Unfortunately, we are short of 
agricultural specialists at entry points, and we have been 
advocating to increase that about 600 agricultural inspection 
specialists, and hoping that Congress will provide the funding 
for that.
    African Swine Fever is the hot topic right now, and it 
changed the world of pork production last October when it was 
introduced or became prevalent in the world's largest swine 
herd in China. Swine production, going forward, will be totally 
different. When you look at risk assessments, actually we are 
more susceptible to classical swine fever, but ASF is the hot 
topic right now.
    But to try to answer your question, we need those 
agricultural inspection specialists, and we need to continue to 
have the great relationship we have enjoyed so far with USDA 
and CBP.
    Mr. Rouzer. My next question is a much broader question, 
and this is one that I think about often. I walked by the brand 
new Whole Foods the other day as you go out towards the Navy 
Yard, just an immaculate, incredible building, as beautiful a 
building you will ever find. Polished floors, food on the 
shelves, and I thought about it. You know, 98, maybe 99 percent 
of the folks that go in there have absolutely no idea where 
those food products come from or how they are produced, or any 
of that. And it has always bothered me a little bit that it 
seems like we are under the same business model we were under 
100 years ago where you are totally dependent upon commodity 
prices and totally dependent upon trade as well. For years we 
talked about energy production and how we need to get away from 
the Middle East and production in the Middle East, and America 
needed to produce more. Well now because of advances in 
technology, we are and helping to dictate the price on the 
world market.
    But it strikes me we have to fundamentally think about 
making some major modifications for agriculture, because you 
have huge advances in technology, allow you to produce more on 
less. But yet, margins get thinner and thinner. At what point 
do you run out of economies of scale, so to speak? You have all 
this consolidation in agriculture across the board. Margins 
continue to get thinner, which means you have to get bigger. 
Well, the bigger you are, the bigger you are known at the bank. 
It is almost at a point where you are too big to fail. Well, 
you hear about that in terms of banking, et cetera.
    My question is who out there is thinking about a new 
business model so that we are not totally reliant upon what 
happens in China and Japan and everywhere else? Not totally 
reliant upon somebody pulling out of a trade deal or--it just 
seems like we need to be thinking about this a little bit 
differently. I don't have the answer. I will just throw it out 
there. It is the question I ponder all the time.
    Mr. Herring. That is a good question. We are in the 
business of feeding people, and when you look at projections, 
they are saying that by 2050 we will have two billion more 
people in this world. And I am speaking for myself, but I think 
my colleagues would agree, we want the opportunity to help feed 
those people.
    Ag is a commodity business, and we harvested 123 million 
pigs in this country last year. In 1979, we harvested about 
half that many with the same amount of animals basically. 
Technology has been great. We need the access to it, but we 
can't urge you enough to help us keep these trade doors open.
    As far as changing the way the industry is, I can't answer 
that. That is way above my pay grade.
    Mr. Rouzer. It is way above mine, too.
    Mr. Chairman, I have run out of time. I yield back.
    The Chairman. Our next witness is Ms. Craig from Minnesota.
    Ms. Craig. Thank you so much, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Craig. Mr. Zimmerman, thank you so much for appearing 
before this Committee this morning on behalf of Minnesota 
turkey. I am also proud to see representation from the rest of 
livestock industry here today, as Minnesota ranks first in 
turkeys raised, second in hogs, and sixth in red meat 
production. I am just going to take credit on behalf of all 
Minnesota here today.
    Mr. Zimmerman, in your testimony, you expressed that you 
are optimistic for the continued growth of the turkey industry 
in Minnesota. In fact, since 2012, we have added over 100 new 
turkey farms throughout the state. I certainly share this 
optimism, but as Mr. Costa said, both you and I know that if we 
fail to address the emerging issues mentioned in your 
testimony, we risk slowing the growth for our state and for the 
industry.
    Many of the livestock producers I talked to in my district 
tell me they need reliable labor, and certainly Mr. Costa 
touched on immigration reform. I know you mentioned the demand 
for workers in your written testimony, and you sat before this 
Committee in the past to express a need for labor.
    How does this lack of workers harm the industry's ability 
to grow, and what labor reforms would be most helpful to you as 
a producer?
    Mr. Zimmerman. Well, you can't raise more birds without 
more people, and we have gone down the automation route. A lot 
of the processing plants have increased automation, but at the 
end of the day, you still need people in those plants to do 
things. There is a certain point where you just can't do 
anymore without the people--and like we all said here, the 
livestock and poultry industries are different from vegetable 
crops in that we need year-round labor. We need that certainty 
of having those people here all the time.
    I hear from the processing guys that they employ people; 
but, they will often employ 120 or 130 percent of the people 
they need because of absenteeism and just the uncertainty if 
those people are actually going to be there. We need those 
workers to be confident that they are going to be here and that 
they will have a job, and that the processors are confident 
those people are also going to be here. It is just a matter of 
getting a visa for your own help, and making sure that they 
have the confidence and the certainty that they will have that 
job there, and they won't be removed for any reason.
    Ms. Craig. There is no doubt in your mind that if we made 
those kinds of workforce changes that you could raise more 
turkeys? We could have more processing plants, that our 
industry would grow?
    Mr. Zimmerman. To grow an industry, you need inputs. 
Whether it is fertilizer, feed, whatever, the input of labor is 
something we really don't have control over, because it is the 
erratic nature of the laws that are affecting it. Yes, if there 
could be more certainty with that input, we could grow more. 
Just like if we knew we had the fertilizer to grow corn, we 
could grow more corn. It is no different. We need certainty in 
that input of labor.
    Ms. Craig. Thank you, and I sure as heck would like to grow 
more, let me turn now to the threat of animal disease. I know 
in Minnesota, we fought this battle with avian influenza, and 
it is very fresh in everyone's mind.
    The 2015 outbreak cost Minnesota's economy nearly $650 
million. Mr. Zimmerman, from your point of view, what has 
improved between industry and government partnerships when it 
comes to preparedness, and where can we continue to improve 
those partnerships?
    Mr. Zimmerman. Well, 2015 was a very bad year for us, and 
we have learned a lot since then. I think we were somewhat well 
prepared, but we have come a long way.
    Complacency is an issue. We have not become complacent. We 
have changed our barns, made them more biosecure. We have 
changed our logistical patterns to make sure that we route 
things to avoid the spread of disease. Our state has a very 
good monitoring system. If there is an outbreak or anything 
comes up, we can all be informed right away. Communication is 
key with our state and Federal partners.
    But in the future, the Animal Pest Disease Program that was 
in the farm bill is critical to stopping it as quickly as 
possible; because, as you know, the outbreak in 2015 in 
Minnesota was followed by a much smaller outbreak in Indiana a 
year or so later, and they were able to nip that in the bud 
very quickly. The lessons we learned in Minnesota and the 
Midwest were applied to that outbreak, and it was much more 
successful in minimizing the spread of that outbreak. 
Communication, having boots-on-the-ground right away, and 
nipping it in the bud are critical.
    Ms. Craig. Thank you again so much for being here, and I am 
nearly out of time, so, Mr. Chairman, I will yield back.
    The Chairman. All right. The gentlewoman will yield back, 
and we thank you for your questioning.
    On the Republican side, the next Member will be Mrs. 
Hartzler from Missouri, for 5 minutes.
    Mrs. Hartzler. Great, thank you, Mr. Chairman, and thank 
you for each of you being here.
    As a lifelong farmer, I grew up on a hog farm, and my 
husband and I raise cattle today. And Missouri's 4th District 
has the most poultry of any other Congressional district, and 
we have a Cargill turkey processing plant. I just feel right at 
home with you all, and appreciate you coming here.
    I wanted to start with Mr. Zimmerman, because in your 
testimony, you talk about food safety, which is really 
important. I had an amendment in the farm bill, FSIS is doing a 
study on small meat processors, but you mentioned in here that 
you would like to see them continue to modernize inspections 
and streamline processes for new technology approval. You say 
that is critical.
    I was wondering, do you have any specifics in mind that you 
think the inspection process needs to be modernized, any 
thoughts on that, or how the process could be streamlined? What 
are some of the problems that you are alluding to?
    Mr. Zimmerman. Well, food safety is one of our major 
concerns, and we have come a long way in addressing those 
concerns. I can't speak from a processing perspective. I can 
speak from a grower perspective; but, we want to make sure 
there is a safe food supply out there, and we want an efficient 
inspection service.
    As far as specifics, I can definitely put you in touch with 
people much smarter than me on that; but, we continue to work 
on eliminating bacterial threats on the farm through the whole 
process, and we just, we ask for the government's help in 
streamlining those processes and making it more efficient so we 
can do the best we can.
    Mrs. Hartzler. Sure. Okay, great. Thanks.
    And we have already talked about the African Swine Fever 
issue a little bit, but I did want to just emphasize, because 
this is so important, that this disease has no vaccine. And it 
is spreading all across the world, certainly devastated China, 
but Mr. Herring, if you could just emphasize again, you said 
you really think what needs to happen is to have us here in 
Congress fund 600 more of these Customs and Border Protection 
agents. Can you talk a little bit more about how they inspect 
and how critical it is, our only line of defense is to keep it 
from getting here.
    Mr. Herring. Well, there are many ways that it could be 
introduced in our country. I have laid up at night and have 
nightmares thinking about it, but those agricultural 
specialists would help us prevent--and we think prevention is 
the number one key. Through USDA they have funded 60 new 
beagles that are being implemented, and today, that is the very 
best inspection service we have is those beagles.
    There is a lot of opportunity, as long as we can keep ASF 
out of this country. And any given day, we have one million 
pigs on the road. If we get an introduction in the right place, 
it will be very difficult for us to contain the African Swine 
Fever.
    Mrs. Hartzler. Okay, thank you. Well, we are in the process 
of going through appropriations process, and I think that is 
really important to us on Agriculture Committee can help 
advocate for that.
    You also mentioned about FDA's current regulation on gene 
editing process that classifies livestock as drugs and farms as 
drug distributors, and how this creates international trade 
challenges. Can you please discuss this a little bit and how 
this might impact producers on a domestic level, and what you 
would like to see regarding gene editing?
    Mr. Herring. Well, we would like to see the gene editing be 
over FDA--I mean, over at USDA. We think it is a viable tool as 
we go forward, just like we were talking about ASF. There is a 
potential with gene editing to prevent ASF, animals that are 
immune to ASF. And we feel like if USDA is the agency to 
administer it, and if we don't, if we fall behind, we are going 
to lose this technology to other countries, and it will make 
our farmers and our rural areas less competitive.
    Mrs. Hartzler. Isn't China doing research right now on gene 
editing----
    Mr. Herring. There are several countries doing research. 
China is one of them.
    Mrs. Hartzler. Okay. I only have 30 seconds left, but the 
NPPC has a new Keep America First in Agriculture campaign. Can 
you talk further about this campaign, and how it could impact 
consumer level and producer level?
    Mr. Herring. Well, as Mr. Zimmerman said, first and 
foremost, we want to grow healthy, safe products that are 
affordable for our consumers. And any tool, whether it is gene 
editing or any technology that is available, we want to have 
firsthand experience and firsthand use of those products and 
that technology to help our producers and our farmers be 
competitive on a worldwide stage.
    Mrs. Hartzler. Thank you very much. I yield back.
    The Chairman. The gentlewoman's time has expired, and we 
will now recognize the gentlewoman from Connecticut, 
Congresswoman Hayes.
    Mrs. Hayes. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here.
    When people talk about my home State of Connecticut, they 
often skip over one of its most prominent and thriving 
industries, and that is agriculture. From dairy to greenhouses 
to poultry--actually, my district, the number one economy is 
greenhouses, which most people don't know. Connecticut has a 
vibrant agricultural industry. We are small, but we are mighty. 
In my home district, there are about 15 local family-owned 
poultry and egg producing farms. Just this Sunday, I went to an 
agriculture roundtable with some of these farmers, and had a 
display of meat birds, which I got a very good education in 
that. Our flagship university, the University of Connecticut, 
has a very large poultry farm and a poultry resource unit, and 
many of our high schools and academic settings are developing 
vocational-ag training programs, and there are long, extensive 
waiting lists.
    While much of the poultry in Connecticut is sold locally 
and regionally, an international export market also exists for 
farmers in Connecticut. Some of our strongest trading partners 
are our neighbors in Canada and Mexico. However, those 
relationships are not without their problems, and farmers and 
producers in my state and across the country are hit by the 
roadblocks that do not allow them to produce to their full 
potential. We heard that from some of the witnesses.
    I hear from farmers that trade deals like NAFTA and the new 
USMCA have made this easier and more frequent; however, certain 
industries did not get as much easy access, as is the case with 
dairy and other thriving industries in my state.
    I would like to get a little bit more information about how 
Congress, as well as partners like the USDA and USTR, can help 
to facilitate the exportation of more poultry to Canada, and 
what that would mean for businesses, especially small family 
farmers in my district.
    My question is for Mr. Zimmerman. In your testimony, you 
mentioned that you see significant potential for the turkey 
industry's growth in the near future. What, in your estimation, 
will drive that growth, and what impact will it have on the 
industry and on local turkey farmers?
    Mr. Zimmerman. From an export perspective, the U.S. 
consumer prefers white meat. They now prefer more--maybe a 
little bit more dark meat.
    Mrs. Hayes. So does my husband.
    Mr. Zimmerman. I like the dark meat too, but historically 
it has been white meat. But a lot of our trade partners, Mexico 
specifically, takes a lot of our dark meat.
    Trade and export markets use products as many others on the 
panel said, that you know, aren't necessarily used in the 
United States, so it allows us to use the whole bird more 
efficiently. And our profit margin is pennies, and if we can 
sell turkey paws (only the foot) to China for a few more 
pennies, I mean, that is the difference between a profit and a 
loss.
    And as far as a small grower like myself, a rising tide 
raises all boats, and if the market can improve for everyone, 
it improves for the little guy as much as the big guy. Trade is 
just important.
    Canada, their system is just a tough nut to crack with 
their quota system, internally for poultry. Some progress was 
made there. We would love to see more. We are content with 
getting some more access to the market, but anything we can do 
to open that market more fully would be wonderful for U.S. 
producers.
    Mrs. Hayes. That is what I heard a lot, that greater access 
to the Canadian markets would be helpful. This is what I have 
been hearing from farmers in my district.
    Ms. Porter, for you and your member companies in Delaware, 
Maryland, and Virginia, what kind of effect would greater 
access to markets like Canada have on local businesses?
    Ms. Porter. Sure. Thank you. Similarly with turkey again, 
and the same with the meat chicken industry here domestically, 
white meat is usually preferred. Dark meat is usually exported, 
as well as chicken paws, the same thing. There is quite a 
market for chicken paws outside of the United States as well, 
too.
    Mrs. Hayes. And beef tongue.
    Ms. Porter. That is right, and beef tongue. Again, the 
opportunities, as I mentioned in my testimony, within our 
region, a lot of our marketplaces are fresh market, because of 
course, we have access to millions of folks in the New York, 
the Northeast area, and so, that is very beneficial to us. We 
do do some export as well. But what happens is, is that when 
the exports are limited within, then you have more a glut 
within the domestic market. That has direct impacts very much 
so on our fresh market when things are not moving out.
    Any increase, any ability to increase exports throughout 
other areas of the region into Mexico, into Canada is going to 
benefit our area, as well as, again, the small farmers within 
your Northeast area as well, too.
    Mrs. Hayes. Thank you, and I appreciate you saying that we 
cannot forget small farmers when we are having these 
conversations.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlewoman yields back. We thank you for 
your questioning, and the next Member is Mr. Hagedorn from 
Minnesota.
    Mr. Hagedorn. Thank you, Mr. Chairman. Witnesses, I 
appreciate your testimony. It is wonderful to be here today.
    I happened to grow up on a grain and livestock farm in 
southern Minnesota. My father and grandfather, great-
grandfather all southern Minnesota farmers. We had hogs and 
corn and soybeans and things like that, and it was a great 
experience.
    I appreciate what you do. We have a lot of livestock in 
southern Minnesota. I think we are number two or three in hogs. 
They did an inventory. They said we were 500 hogs behind 
Rouzer's district over there. We want a recount. We want a 
recount. I don't know what is going on, but a lot of hogs, lot 
of----
    Mr. Rouzer. I think you have been counting dead hogs up 
there.
    Mr. Hagedorn. It is the corn flip. Yes, I think so. A lot 
of hogs, a lot of beef, and dairy and everything else. And we 
appreciate you, and what you do to provide the goods to the 
American people so when they walk into the grocery store, they 
have those choices at affordable prices. It is a wonderful 
thing, and we need to continue that.
    Sometimes I think we--I heard the testimony, interested in 
trade, immigration laws and things like that, but we kind of 
gloss over that there have been some gains made for agriculture 
in just the last couple of years that have been very important.
    On regulations, if we didn't do something about that Waters 
of the United States regulation, I daresay that everybody on 
this panel would right now be complaining about how it is 
onerous, it is driving up costs, how the EPA and others would 
have too much power over your producers and what you do. That 
was a good thing.
    I think the way we looked at energy in the last couple of 
years has been very important. Some of those anti-energy 
policies in the last Administration were driving up costs 
needlessly, and for many farmers, the cost of energy is a big 
driver, whether or not you are going to make money, lose money, 
and now we have U.S. energy independence, except for that 
little 20 percent of crude oil that we import. We are keeping 
downward pressure on your cost of doing business.
    On Obamacare, one of the biggest things that is driving up 
costs and hurting farmers and agribusinesses has been this 
Obamacare since it has been implemented. Not enough has been 
done to fix that, but the association plans and others that 
have some promise, and we have to do better. I am for patient-
centered medicine, and I promise to do everything I can to try 
to drive down your costs there.
    On trade, though, yes, USMCA I am all for it. I was the 
first elected official in the State of Minnesota to come out 
for it. My friends, Congressmen Tom Emmer and Pete Stauber, are 
from Minnesota. We sent a letter to the President and to the 
Speaker saying send us that agreement. Madam Speaker, let's get 
a vote. There are five folks that we offered that up to in the 
Minnesota delegation who weren't Republicans. They didn't sign, 
but I would encourage you to go to my friends on the other side 
of the aisle and encourage them to go to the Speaker and say we 
need a vote. Because Mexico and Canada are going to ratify it. 
Mexico already did. But the only way we are probably not going 
to ratify it in the United States is if the Speaker doesn't 
give us a vote on the House floor. And we need to have a vote 
by the end of the year to make sure that this is done. I would 
like it done yesterday as well, sir, so let's keep that in 
mind.
    And it will build great momentum for these other deals. I 
mean, if we can't do one with Mexico and Canada, how would 
anybody in Japan or China or anywhere else expect us to get 
something done with them? And the deals that they are working 
on with Japan, China, the UK, South Korea, it is good for 
agriculture. It is good for all the Minnesota businesses and 
others.
    On immigration, though, I hear kind of one side of it, and 
we have to remember there are two sides to this. One is I am 
for a work program. Let's expand it. Let's bring people in, 
fill needed jobs. We can offer them credits towards 
citizenship. We can do lots of things in order to make sure 
that we have folks for these jobs. But until we secure the 
borders, until we have an immigration system that works, that 
can't be circumvented, those programs are worthless. Because if 
you can just run over the border or overstay a visa and then 
undercut the programs that we have to try to fill these jobs, 
some people are still going to cheat. Some people are still 
going to get in there and work illegally. That is inherently 
unfair. We have to have a system that is fair and legal for 
everyone.
    I am for that. I hope you will want to secure the borders, 
have merit-based immigration. Those types of policies that are 
going to make sure that we have an even playing field for 
everyone, and that we can have commerce and industry and 
workforce like you need.
    With that, I yield back. Thank you.
    The Chairman. All right. The gentleman yields back, and the 
next Member on our side is Ms. Plaskett from the U.S. Virgin 
Islands.
    Ms. Plaskett. Thank you very much, Mr. Chairman, and I 
thank the Ranking Member and the witnesses for being here.
    I think this has been a really enlightening and educational 
discussion, at least on my part. I would think some of my 
colleagues as well.
    Mr. Zimmerman mentioned something that I found very 
interesting with regard to flu and some of the work that you 
did afterwards after the disease to making sure barns were safe 
and more stable.
    Ms. Porter, you referenced, however, that \1/4\ of the 
chicken houses in your region are more than 30 years old. Would 
you guess the same is true for other major poultry-producing 
parts of the country?
    Ms. Porter. I would not necessarily be able to speak for 
other parts. As I mentioned, our industry has been around for 
over 100 years, so we have had quite a robust industry for a 
while. But I would speculate that there probably are some aging 
houses throughout, especially within the Southeast, again, in 
the states that have had an industry for a while. Many of those 
houses have had technological upgrades over the years.
    Ms. Plaskett. Sure.
    Ms. Porter. But, like any house, even your own current 
houses, there is only so much that you are able to do for 
upgrades, and so that is why sometimes you will need----
    Ms. Plaskett. What tools would help and support farmers for 
upgrades in those areas?
    Ms. Porter. Sure. Most of the time any upgrades or 
technology are going to have some costs to them, so to have 
secure lending opportunities, whether it is through USDA, FSA 
programs, whether it is through any of our rural banks and 
local banks and lenders, as well as programs through the SBA as 
well, too. All of those are very important. Most of the 
upgrades are not $100 or $200 fixes.
    Ms. Plaskett. Sure.
    Ms. Porter. They are usually thousands of dollars.
    Ms. Plaskett. Substantial.
    Ms. Porter. Yes, absolutely.
    Ms. Plaskett. I know in the Virgin Islands, you talk 
about--secure loan sounds like a great idea, as well as rural 
banks and making them easier for farmers to be able to utilize 
is the thing that I think about most.
    In the Virgin Islands, our needs are not necessarily age, 
but resilience to be prepared for inclement weather and other 
issues that we may have. And so, I appreciate some of those 
things that you mentioned.
    I know Mrs. Georgiades--tell me how to do it right.
    Mrs. Georgiades. Spot on. You got it. Me too, I am still 
practicing, I promise you.
    Ms. Plaskett. When I talked about sustainability and 
resilience, you mentioned accurate portrayal of sustainability 
in ranching. What practices does your farm employ, and why do 
you choose to implement them?
    Mrs. Georgiades. One thing I have always made a hallmark on 
about our industry is that you cannot find any better 
conservationists in the world than agriculture producers. If we 
don't have productive land, we can't produce the food and fiber 
that our neighbors enjoy.
    It has been an interesting conversation from the standpoint 
that people will look at agriculture producers and perhaps 
really out of not understanding the industry, associate certain 
practices that are not accurate with what we do. I have always, 
like I said, you cannot find a better conservationist in the 
world than agriculture producers, because the things that we 
do, for example, in my part of Texas, we are in one of the 
highest forage producing areas of the United States. We have 
ample rainfall. We have had a little too much this year. It has 
been quite interesting. But the benefit is that we are able to 
produce forage. And as we know, forage cannot be consumed by 
humans to be converted to food.
    Ms. Plaskett. Right.
    Mrs. Georgiades. And so, the techniques that we use are 
different rotational grazing practices, and just optimal 
utilization of the natural resources that we are given. And so, 
that is our responsibility as producers, and our operation at 
Santa Rosa Ranch is to make sure that we utilize those to the 
greatest benefit of the cattle and the beef that we are 
producing.
    Ms. Plaskett. Well, I appreciate that, and I know that 
ranchers in the Virgin Islands as well where we produce them, 
and created the Senepol bull, which is a very heat-resistant 
and made specifically to adapt to environment. I appreciate----
    Mrs. Georgiades. Actually, we have exported cattle to other 
Caribbean nations also.
    Ms. Plaskett. Excellent. We have to talk.
    Mrs. Georgiades. Yes. Brangus do just as well as Senepols 
everywhere else.
    Ms. Plaskett. See, you need to come on down to the Virgin 
Islands then.
    Mrs. Georgiades. I would love to.
    Ms. Plaskett. February is agriculture fair. What better 
place to be in February?
    Mrs. Georgiades. I think that sounds like a great time to 
visit. Thank you.
    Ms. Plaskett. I am showing off. Thank you so much.
    I just wanted to know, Mr. Chairman, if I might, Mr. 
Zimmerman, the importance of Federal research and expertise. 
You mentioned that, and why is the Federal research so 
important to the turkey industry? And with that, I yield back.
    Mr. Zimmerman. Federal research, state research, university 
research is always important for new and emerging disease 
threats. We don't know what--we knew about avian influenza, but 
the highly pathogenic strain, we saw that coming but we didn't 
see it coming. But with the help of the University of Minnesota 
and Federal research we were able to figure out these different 
viral strains, and they are constantly changing and constantly 
mutating. And the help of the academia, as I mentioned, to 
analyze what is there and what is not there has been incredibly 
beneficial.
    After our outbreak of avian influenza, there was a massive 
study undertaken about why did it happen here and not here, and 
through the University of Minnesota and other institutions, 
they were able to come up with many theories of why viruses 
travel the way they traveled. And it was incredibly beneficial 
for us preparing for the next outbreak to have that information 
from them. And that is something that only a large institution 
like that could do with Federal funding.
    The Chairman. All right. We thank the gentleman for his 
answer, and we thank the gentlewoman for questioning and her 
focus. You sort of hit an interest over on this side about 
possibly having a Subcommittee hearing in the Virgin Islands, 
part of that conversation.
    The gentleman from Pennsylvania, let me recognize Mr. 
Thompson.
    Mr. Thompson. Thank you, Chairman. Thanks to the members of 
the panel for being here today, and thank you for what you do, 
and just reinforcing the importance of what you do. We need a 
robust American livestock and poultry industry. It benefits 
American families in every community. It contributes towards 
what we need to achieve of a more robust rural America. And it 
also, quite frankly, benefits national security. You are all in 
the national security business, actually, from my perspective, 
you look at the importance and the priority of food security 
when it comes to national security.
    Just real quickly, how much of a threat is the workforce 
shortage and the unreliability of workforce in the livestock 
and poultry industries to our own nation's food security? 
Thoughts on that?
    Mr. Zimmerman. It is the number one issue we have here in 
D.C. this year, and it has been the number one issue for the 
last several years. Like I said, it is the one input that we 
really have the least control over right now. And without 
having people, we can't function. I don't know how to put it 
more simply than that. We just need a steady, secure source of 
labor to do our jobs.
    Mr. Thompson. Yes. Without workforce, there are great 
business plans, but you are just not going to be able to 
produce, and without that, it is a pretty slippery slope to 
food insecurity.
    For that reason, if no other reason, I mean, as quickly as 
possible as we can get USMCA ratified, approved, and then 
obviously, that is the motivation for--and that would give us 
great momentum with--trade with other countries. Mexico and 
Canada are number one and number four maybe, something like 
that, in terms of trading partners. They are certainly top.
    We talk a lot about--well, we actually talk a little bit. 
We have seen no action on infrastructure. I thought coming out 
of the chute in January that would be the first thing that we 
would do in a bipartisan way. We haven't gotten there yet. But 
when we do, do you see any needs within your industries for 
processing? Agriculture processing in my home State of 
Pennsylvania is something that--workforce is a limiting issue, 
but the availability of sufficient processing for agriculture 
products as well. Any ideas or suggestions that we should put 
forward to be considered with some type of infrastructure 
package that hopefully will be occurring here in the not too 
distant future?
    Mr. Zimmerman. I guess related to infrastructure, I will 
talk about truck weights. That is something that we have been 
discussing corn-side, turkey-side, whatever, but if we could--
several states have increased their truck weight limits, and 
that needs to be something that would be able to cross state 
lines. Some sort of uniformity in truck weights and increasing 
those truck weights. We can reduce--it helps with labor because 
you don't need as many truck drivers, and it helps with 
infrastructure because you don't destroy your roads because you 
have less wheel--it is much more efficient. Sustainability, it 
helps on so many different levels.
    But to have some sort of uniform increase in truck weights 
would be very beneficial in a number of ways to our industry.
    Mr. Thompson. Mr. Salmon, you mentioned in your testimony 
the difficulty of cost enforcement issues associated with the 
H-2A program and the sheep industry. Can you elaborate just a 
little more with that?
    Mr. Salmon. I am sorry, could you repeat part of that 
question? I missed part of it.
    Mr. Thompson. Sure. Just with the difficulty of cost 
enforcement issues associated with the current H-2A program, 
specifically to the sheep industry. I wondered if you could 
just elaborate on that a bit about what those issues are? Why 
doesn't that work well for year-round agriculture?
    Mr. Salmon. For us, the sheep herding program is a year-
round function. For the rest of the industry, most of it is 
going to be either in processing or in sheep or goat shearing, 
which is typically seasonal. But the problem that we have been 
faced with is some--what we would call some frivolous lawsuits 
against the H-2A program where those folks who have applied for 
H-2A workers, and it has really cost a lot of folks a lot of 
money to try and deal with that issue.
    But we need those workers, because we can't find those 
workers--we can't find American folks that will take some of 
those jobs.
    The Chairman. I agree, and your time has expired, but we 
will continue to try to work on this important area.
    The last Member on our side for questioning is Congressman 
Panetta from the beautiful Central Coast of California. Mr. 
Panetta?
    Mr. Panetta. Thank you, Mr. Chairman. I appreciate this 
hearing. I appreciate this opportunity, and thanks to all the 
witnesses for being here, as well as your preparation to be 
here. Clearly a lot was put into this, and thank you for your 
expertise on this issue as well.
    As the Chairman mentioned, I come from the Central Coast of 
California, so we have a lot of specialty crops. We have a 
little bit of cattle, and some dairy as well. But obviously, 
the specialty crops are what we focus on. However, even though 
we have different products, I think we all have the same 
issues, clearly based on the few questions that I have heard in 
these last couple minutes.
    Obviously, immigration is very important. Sustainability is 
very important. Infrastructure is very important as well. And 
yes, I do believe that we need immigration reform. Yes, we 
are--want to get to yes on USMCA on this side of the aisle, and 
I just came from a Ways and Means meeting where basically 
discussions are being had and negotiations are being had as we 
speak, in regards to that with the Trade Representative as 
well. Bob Lighthizer has done one heck of a job, I believe, in 
being accessible and being ready for these types of 
negotiations. That is a good thing.
    However, I do believe there is also another angle we can 
go, and I kind of saved that. Obviously, a lot of people took 
all my questions, so now I am at this question right here, and 
that has to do with ag tech. Because I do believe that we can 
look at mechanization to fill some of our labor issues. I do 
believe we can look at ag tech to fill some of our 
sustainability issues as well. Being from the Salinas Valley, 
which is in the shadow of the Silicon Valley, obviously we have 
a lot of those relationships and you are seeing a lot of 
private industry make those types of investments. I believe it 
is time for the government to step up and also help out as 
well, and that is why we wanted some of that mechanization 
language in the 2018 Farm Bill, which we got.
    But my question to you, to anybody that would be willing to 
answer, would be how is ag tech benefitting your industry, and 
where do you think--if you could rattle off a couple of 
innovations that it has helped, either with producing or--I am 
not going to say harvesting, that is us--but producing or 
sustainability as well?
    Mr. Zimmerman. It is interesting, because just in the last 
few months we have actually installed a prototype robot in one 
of our turkey barns.
    Mr. Panetta. Exactly. Can you go into detail about that, 
will you, Mr. Zimmerman?
    Mr. Zimmerman. I can go into some detail, but they don't 
want too much detail out yet.
    Mr. Panetta. I understand.
    Mr. Zimmerman. It is mainly to gather environmental 
parameters, but also for animal welfare, to check on the health 
of the birds and make sure everything--a robot can be there 24/
7, and it can notice problems much quicker than a human could.
    Robotics is one thing, but then just computerized 
monitoring and sensoring in the barn has been another thing. 
Today's hog barn is--I can access my turkey barns right here. I 
know exactly what the temperature is in every barn right now. 
Things like that and gathering data. Analyzing that data is a 
whole other thing. What are we going to do with all the data 
once we get it, and that is what we are working on now.
    Replacing some labor, but not all. I think it changes the 
labor. It helps you become a better manager, and I was always 
told all this data and all this modernization will make a good 
manager better, and it will make a bad manager worse. You still 
need good people in there to do the jobs, and we are also going 
to need a new class of people to fix all this increased 
automation. Tech degrees, 2 year degrees, people that have the 
ability to repair and replace and monitor these computer 
systems and these robots and these barns, whether it is 
turkeys, hogs, sheep, whatever, are going to be of value in the 
future, too.
    Mr. Panetta. And are you seeing that kind of shift in some 
of your local community colleges, your local colleges as well?
    Mr. Zimmerman. Robotics clubs are big. I am 46 years old 
and I didn't think I was old, but now I have these 22 and 25 
year old kids coming out and putting robots in my farm and 
talking a language I don't even understand.
    Mr. Panetta. Yes.
    Mr. Zimmerman. But some of them played football, but most 
of them were in a robotics club. It is a whole new world.
    Mr. Panetta. Yes, and look, you are right. I think nothing 
will replace our human intuition. As a farmer said to me, the 
best fertilizer is a farmer's shadow, and I a firm believer in 
that. However, I do believe that, like you said, there has to 
be some improvements to make it a little bit easier in regards 
to dealing with some of the conditions we have, and especially 
with sustainability. If there is anybody else that has anything 
to say in regards to how ag tech has helped your industry?
    Ms. Porter. I would just echo, again, what Mr. Zimmerman 
said, and in addition to that, it has also been talked about 
too, just the importance of ag research. The ag tech, you do 
have individual companies that are looking at this; but, it is 
also important again in looking back at academia and working 
with our land-grant universities and having the ability to work 
with them and work with that research. The land-grant 
universities, through their practical research, through their 
extension services, working directly with growers, farmers are 
really going to be some of your best ways to help advance and 
continue to advance any ag technology out there.
    Mr. Panetta. Outstanding. Once again, thank you, ladies and 
gentlemen. I yield back my time.
    The Chairman. I thank the gentleman for his questioning and 
his comments, and we are now prepared to adjourn. I will 
recognize the Ranking Member here for any closing remarks that 
he may want to make.
    Mr. Rouzer. Well thank you, Mr. Chairman. I want to thank 
each of the witnesses for being here today, for providing your 
testimony and your expertise to us. It means more than you 
know. It is very valuable to the Committee as a whole, as well 
as Congress in general.
    There are a number of issues out there that are challenges, 
and a number of those were highlighted today, and I appreciate 
your input on that. I want to underscore again just how 
important it is to get USMCA ratified. Probably if there is one 
thing Congress can do between now and the end of the year, I 
don't know of anything more important than that. Of course, we 
have other things on the plate that we got to deal with, the 
caps agreement and budget deal, and appropriations bills, et 
cetera. But from a policy standpoint and trade policy 
standpoint, I don't know anything more critical to agriculture. 
Let's keep up a full court press to get that vote, and get that 
agreement ratified.
    With that, Mr. Chairman, I appreciate the opportunity to 
join you today, and your work on these particular topics, and I 
yield back.
    The Chairman. Well thank you very much, Ranking Member, for 
your coordination and collaboration with this Subcommittee. We 
appreciate it. I think we had a good hearing this morning. I, 
too, concur that besides dealing with our budget bills and 
dealing with sequestration and lifting the debt ceiling, which 
are among our first priorities, clearly, to keep government 
funded, passing the USMCA measure would--before the end of the 
year--be significant on behalf of not just American 
agriculture, but our partnerships with Mexico and Canada and 
continuing to build on our economy and provide certainty as we 
try to deal with other trade agreements as well.
    Quickly, Mrs. Georgiades, California may not have as many 
beef cattle as you have in Texas, but we have a lot of them 
too. We exported $375 million in beef products. Beyond 
maintaining our tariff re-access to Mexico and Canada, can you 
see us getting a deal with Japan, and what other markets are 
most important to the U.S. beef producers?
    Mrs. Georgiades. Japan is our number one market. South 
Korea is our second. Mexico is our third. Canada is our fourth, 
and Hong Kong is fifth. Hong Kong is the pass-through market to 
China.
    The Chairman. It is mainly that gray market in Hong Kong, 
is it not?
    Mrs. Georgiades. It is, and they admit to it, too. Yes, 
that is what they do call the gray market. Working with the 
European Union at this point in time is another strong effort 
that we are making to fortify those agreements as well. But as 
I mentioned before, the uncertainty that surrounds these 
different trade issues that we have are what make people 
concerned. I think that passing USMCA, ratifying this will give 
people confidence. I would say it would give our producers 
confidence to perhaps invest in and expand their operations 
even more so, understanding that we are moving forward and 
trying to have some of these agreements in place with our 
largest partners.
    The Chairman. And it is not just beef, but it is all 
commodities that we grow in this country
    Mrs. Georgiades. It is, correct.
    The Chairman. I won't bother to take you through the list 
of California commodities. Forty-four percent of our 
agriculture is dependent upon export, and so these trade wars 
are not helping that at all, and the mitigation is a pittance 
in comparison.
    Well, I thank my colleagues. We got a good conversation on 
not only specifics within livestock and poultry, but also the 
challenges that all of our industries are facing with regards 
to immigration and trade, something that American agriculture 
deals with in common, and we must try to provide solutions in 
those areas.
    With this work of the Subcommittee done this morning, under 
the Rules of the Committee, the record of today's hearing will 
remain open for 10 calendar days to receive additional material 
and supplemental written responses from witnesses to any 
questions posed by a Member.
    This hearing of the Subcommittee on Livestock and Foreign 
Agriculture is now adjourned. Thank you.
    [Whereupon, at 11:59 a.m., the Subcommittee was adjourned.]

                                  [all]
</pre></body></html>
